<html>
<title> - H.R. 1633, THE FARM DUST REGULATION PREVENTION ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
        H.R. 1633, THE FARM DUST REGULATION PREVENTION ACT OF 2011

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            OCTOBER 25, 2011

                               ----------                              

                           Serial No. 112-99


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov





       H.R. 1633, THE FARM DUST REGULATION PREVENTION ACT OF 2011

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2011

                               __________

                           Serial No. 112-99




      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
76-176                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9cfbecf3dcffe9efe8f4f9f0ecb2fff3f1b2">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         JAY INSLEE, Washington
CHARLES F. BASS, New Hampshire       TAMMY BALDWIN, Wisconsin
PHIL GINGREY, Georgia                MIKE ROSS, Arkansas
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana              Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 7_____

                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
JOHN SULLIVAN, Oklahoma              BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JAY INSLEE, Washington
GREG WALDEN, Oregon                  KATHY CASTOR, Florida
LEE TERRY, Nebraska                  JOHN D. DINGELL, Michigan
MICHAEL C. BURGESS, Texas            EDWARD J. MARKEY, Massachusetts
BRIAN P. BILBRAY, California         ELIOT L. ENGEL, New York
STEVE SCALISE, Louisiana             GENE GREEN, Texas
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
PETE OLSON, Texas                    MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     CHARLES A. GONZALEZ, Texas
CORY GARDNER, Colorado               HENRY A. WAXMAN, California (ex 
MIKE POMPEO, Kansas                      officio)
H. MORGAN GRIFFITH, Virginia
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     3
Hon. Mike Pompeo, a Representative in Congress from the State of 
  Kansas, opening statement......................................     9
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     9
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................    10
    Prepared statement...........................................    12
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    13
Hon. Pete Olson, a Representative in Congress from the State of 
  Texas, opening statement.......................................    13
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    13

                               Witnesses

Hon. Kristi L. Noem, a Representative in Congress from the State 
  of South Dakota, opening statement.............................    15
    Prepared statement...........................................    18
Hon. Robert Hurt, a Representative in Congress from the 
  Commonwealth of Virginia.......................................    23
    Prepared statement...........................................    25
Regina McCarthy, Assistant Administrator for Air and Radiation, 
  Environmental Protection Agency................................    46
    Prepared statement...........................................    48
    Answers to submitted questions...............................   354
Steve Foglesong, Ranch Owner, Black Gold Cattle Company, on 
  behalf of National Cattlemen's Beef Association................   149
    Prepared statement...........................................   152
    Answers to submitted questions...............................   357
Kevin Rogers, President, Arizona Farm Bureau Federation, on 
  behalf of American Farm Bureau Federation......................   218
    Prepared statement...........................................   220
    Answers to submitted questions...............................   363
Pete Lien, President, Peter Lien & Sons, Inc., on behalf of 
  National Stone, Sand & Gravel Association......................   234
    Prepared statement...........................................   236
    Answers to submitted questions...............................   366
Kurt E. Blase, Partner, Holland & Knight, on behalf of Coarse 
  Particulate Matter Coalition...................................   250
    Prepared statement...........................................   252
    Answers to submitted questions...............................   367
Till von Wachter, Associate Professor of Economics, Columbia 
  University.....................................................   259
    Prepared statement...........................................   261
John Walke, Senior Attorney and Clean Air Director, National 
  Resources Defense Council......................................   265
    Prepared statement...........................................   267
    Answers to submitted questions...............................   369
Gregory Wellenius, Assistant Professor of Epidemiology, Brown 
  University.....................................................   327
    Prepared statement...........................................   329

                           Submitted Material

H.R. 1633, A Bill to establish a temporary prohibition against 
  revising any natinoal ambient air quality standard applicable 
  to coarse particulate matter, to limit Federal regulation of 
  nuisance dust in areas in which such dust is regualted under 
  State, tribal, or local law, and for other purposes, submitted 
  by Mr Whitfield................................................     6
Letters, dated October 3, 2011, October 12, 2011, October 14, 
  2011, and October 17, 2011, to committee and subcommittee 
  leadership and Mrs. Noem in support of H.R. 1633, submitted by 
  Mr. Gardner....................................................    37
``Guide to Agricultural PM10 Best Management Practices: 
  Agriculture Improving Air Quality,'' Second Edition, 2008, 
  Governor's Agricultural Best Management Practices Committee, 
  State of Arizona, submitted by Mr. Gardner.....................    70
Report, ``Livestock Best Management Practices to Reduce 
  PM<INF>10</INF>,'' undated, State of Arizona, submitted by Mr. 
  Gardner........................................................   101
Letter, dated October 24, 2011, from Arvin Ganesan, Associate 
  Administrator, Environmental Protection Agency, to Mr. Rush, 
  submitted by Mr. Rush..........................................   143


       H.R. 1633, THE FARM DUST REGULATION PREVENTION ACT OF 2011

                              ----------                              


                       TUESDAY, OCTOBER 25, 2011

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Sullivan, 
Shimkus, Walden, Terry, Burgess, Bilbray, Scalise, McMorris 
Rodgers, Olson, McKinley, Gardner, Pompeo, Griffith, Barton, 
Upton (ex officio), Rush, Markey, and Waxman (ex officio).
    Staff present: Allison Busbee, Legislative Clerk; Cory 
Hicks, Policy Coordinator, Energy and Power; Heidi King, Chief 
Economist; Ben Lieberman, Counsel, Energy and Power; Mary 
Neumayr, Senior Energy Counsel; Alison Cassady, Democratic 
Senior Professional Staff Member; Kelley Greenman, Democrat 
Legislative Associate; Caitlin Haberman, Democratic Policy 
Analyst; and Alexandra Teitz, Democrat Senior Counsel, Energy 
and Environment.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. This hearing will come to order.
    Today we will discuss H.R. 1633, the Farm Dust Regulation 
Prevention Act of 2011. In most respects, this hearing will be 
similar to many of the others our subcommittee has held this 
year. As you know, we have jurisdiction over EPA's Clean Air 
Act regulations, and we have an obligation to the American 
people to ensure that new regulations do not impose burdensome 
costs or obstruct job creation, particularly at a time when our 
unemployment is high, our economy is struggling and uncertainty 
is widespread.
    EPA's unprecedented wave of stringent and inflexible 
regulations pose a serious threat to the economy, on job 
creation, in our opinion, which is why we have held an 
unprecedented number of hearings on the plethora of regulations 
issued by EPA. The only difference between today's hearing and 
most of the others is the target of the EPA regulation at 
issue. Many of the previous hearings dealt with rules most 
directly impacting manufacturing and energy production. Today, 
we discuss EPA's particulate matter standards and their 
potential impact on family farms and small businesses in rural 
America.
    EPA is in the process of revising its National Ambient Air 
Quality Standards for particulate matter. This includes 
PM<INF>10</INF>, which is coarse particulate matter, also known 
as dust. Although EPA has said it will not propose changes to 
its existing dust standard, there are several reasons for 
uncertainty about the outcome of EPA's ongoing review. EPA has 
discussed further regulation of farm dust since 1996. Most of 
us believe that the current PM<INF>10</INF> standard of 150 
micrograms per cubic meter is sufficient and should not be 
changed, especially given the absence of evidence that farm 
dust poses a health threat.
    In April 2011, EPA issued a policy assessment that 
recommends this standard either be unchanged or lowered to 65 
to 85 micrograms per cubic meter. The assessment also 
recommends a change in the way compliance is measured. Any 
changes to the current standard would almost certainly force 
States and localities to impose additional restraints on 
farming and other operations in rural America in order to 
comply.
    It is possible that EPA will ultimately retain the current 
PM<INF>10</INF> standard in its pending review, but it should 
be noted that the last time EPA considered revising its 
standard for PM<INF>10</INF> in 2006, the final version did not 
adopt an exemption for agricultural dust that had been on the 
table at an earlier stage.
    [The prepared statement of Mr. Whitfield follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.001
    
    [GRAPHIC] [TIFF OMITTED] T6176.002
    
    [H.R. 1633 follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.003
    
    [GRAPHIC] [TIFF OMITTED] T6176.004
    
    [GRAPHIC] [TIFF OMITTED] T6176.005
    
    Mr. Whitfield. At this time I would like to recognize the 
gentleman from Kansas, Mr. Pompeo, who is a sponsor, I believe, 
of this legislation, for 1 minute.

  OPENING STATEMENT OF HON. MIKE POMPEO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF KANSAS

    Mr. Pompeo. Thank you, Mr. Chairman. Thank you for holding 
this hearing on H.R. 1633.
    You know, I represent an agricultural State and my district 
has lots of production agriculture. It is part of who we are. 
The issues that these folks face are like a lot of other small 
businesses--crushing regulations and tax burdens, but some have 
a very different flavor like this one.
    The issue we are talking about today, the effort to 
regulate farm dust as a particulate pollutant, is one of the 
most concerning and potentially most burdensome regulations 
coming from Washington, D.C., in my 10 months here so far. Now, 
the EPA's recent announcement that it currently has no 
intention of imposing new regulations on dust sounds to me like 
a purely political and likely temporary decision and frankly 
doesn't give our farmers in Kansas or across the country the 
certainty they need. The fact remains that EPA staff has 
suggested tightening this regulation, and that tightening of 
the regulation would include farm dust.
    Like many other sectors in our economy, we need long-term 
planning. We need the ability for farmers to know what they can 
and can't do. That is why I am proud to be a cosponsor of the 
Farm Dust Regulation Prevention Act, and I am pleased to have 
Congresswoman Noem and Congressman Hurt here this morning to 
testify about it. Thank you both for being here.
    With that, I yield back my time.
    Mr. Whitfield. Thank you very much, and I will yield back 
the balance of my time as well, and I recognize Mr. Rush for 5 
minutes for his opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, and I also 
want to thank all the distinguished witnesses who will be here 
at today's hearing and testifying.
    Mr. Chairman, we are here to discuss the Farm Dust 
Regulation Prevention Act of 2011, even though last week EPA 
made the decision that it would not propose any changes to the 
current standard of 10 PM or 10 micrometers for coarse 
particulate matter. The basis of today's hearing is H.R. 1633, 
the bill introduced by Representative Kristi Noem of South 
Dakota, who we are pleased to welcome to the subcommittee for 
her testimony today.
    H.R. 1633 would bar EPA from revising its rules for coarse 
particulates for 1 year. It would also create a permanent 
exemption for ``nuisance'' dust from farms and country roads. I 
look forward to hearing from Assistant Administrator of the 
Office of Air and Radiation, Gina McCarthy, as well as other 
stakeholders testifying to better understand the impact that 
this proposed legislation will have on the Clean Air Act as 
well as on public health.
    In particular, I have concerns over section 3 of H.R. 1633, 
which states that the Clean Air Act does not apply to, again, I 
will quote, ``nuisance'' dust and would eliminate EPA's 
authority under the Clean Air Act to regulate anything that 
constitutes nuisance dust except narrowly defined 
circumstances. As currently drafted, nuisance dust is defined 
as particulate matter that is, one, generated from natural 
sources, unpaved roads, agricultural activities, earth-moving 
or other activities typically conducted in rural areas, or, 
two, consisting primarily of soil, other natural or biological 
materials or wind-blown dust. However, the phrase ``other 
activities typically conducted in rural areas'' is much too 
broad and could potentially include industrial activities that 
are commonly located outside of urban areas that will be exempt 
from the Clean Air Act regulation including power plants, 
ethanol refineries, mines and smelters, and pulp and paper 
mills. Section 3 raises serious concerns over whether EPA could 
continue to implement fine and coarse particle pollution 
programs or whether the EPA could ever adopt or implement 
revised fine or coarse particle standards.
    However, H.R. 1633 takes certain types of particulate 
matter out of the entire Clean Air Act altogether. This bill 
could potentially forever prohibit EPA from regulating mercury 
from coal-fired power plants based on the argument that mercury 
is emitted as particulate matter from coal-fired power plants 
and burning coal to generate electricity is an activity 
typically occurring in rural areas. Additionally, as written, 
section 3 is not limited to stationary sources so H.R. 1633 
calls into question EPA's ability to set tailpipe emission 
standards for new vehicles or engines to limit their fine 
particulate pollution as well as the ability to enforce 
existing particulate standards for new vehicles or engines.
    So I think it is important, Mr. Chairman, to clarify the 
bill's language to avoid unintended consequences to the overall 
Clean Air Act.
    Mr. Chairman, I look forward to hearing from all of the 
panelists on the merits and necessity of H.R. 1633, and with 
that, I yield back the balance of my time.
    Mr. Whitfield. Thank you, Mr. Rush.
    At this time I would recognize the full committee chairman, 
Mr. Upton of Michigan, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    Today's hearing looks at a source of major concern to the 
ag sector and rural America, which is EPA's regulation of 
coarse particulate matter, otherwise known as dust.
    H.R. 1633, the Farm Dust Regulation Prevention Act of 2011, 
provides relief from this regulatory threat, and I welcome two 
of the cosponsors of this bipartisan legislation, Kristi Noem 
of South Dakota and Robert Hurt of Virginia, who are here 
today.
    The very last thing that our struggling economy needs is 
new costs and regulatory burdens on farmers and small 
businesses across rural America. They already face indirect 
consequences from EPA's costly regulatory agenda, and now they 
are rightfully concerned about the threat of direct regulation 
of their operations.
    The EPA recently announced that it plans to propose 
retaining the existing standard for coarse particulate matter, 
and I appreciate those assurances. But like the stakeholders 
that we will hear from today, I am not at all satisfied with 
this step for the simple reason that regulatory uncertainty 
will remain.
    EPA's proposal could change throughout the review process. 
The ag community's concerns may not be fully addressed. And 
even if the final standard contains no changes, it is always 
subject to court challenge. For these reasons, EPA's insistence 
that it does not plan to change the rule is far from a 
guarantee that such a change would never come to pass.
    In the face of this ongoing regulatory uncertainty, this 
legislation makes good sense. The bill is targeted. It prevents 
EPA from setting a new coarse particulate matter standard for 1 
year, and it also makes clear that State, tribal, and local 
governments have authority to regulate so-called nuisance dust 
common across rural America. The State and local emphasis is 
appropriate for dust, which is a local issue.
    The bill gives EPA authority to regulate nuisance dust in 
the absence of State or local action, and after both costs and 
benefits are taken into account. That is common sense and it 
protects the interests of our vital rural economy.
    I commend our colleagues for putting together their 
legislation on the table. If EPA is serious that it does not 
intend to regulate farm dust, it should embrace this 
legislation.
    I yield to the gentleman from Texas, Mr. Barton.
    [The prepared statement of Mr. Upton follows:]
    [GRAPHIC] [TIFF OMITTED] T6176.006
    
   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Well, thank you, Congresswoman Noem and 
Congressman Hurt for introducing this and being here. We are 
beginning to have some dust storms like we had back in the 
1930s. We had a very bad one in Lubbock, Texas, last week. 
There are differences of opinion as to the cause of the storms 
but it appears that we are in a cycle where the weather 
conditions are such that we are going to have dryer weather and 
a little bit warmer temperatures and so we are going to have 
dust storms.
    EPA back in 2006 suggested that we shouldn't regulate farm 
dust. I wish the EPA would dust that proposal off and institute 
it instead of even thinking about regulating farm dust. As the 
chairman just said, this legislation is preemptive in nature 
and I would hope that we can move it very expeditiously. We 
don't want to have a re-creation of the 1930s, and because of 
farm practices and some of the dam projects that have been 
constructed, we shouldn't, but we also don't want to overreact 
and regulate something that God himself or herself can't 
regulate.
    So with that, I would yield the balance of the time to Mr. 
Olson of Texas.

   OPENING STATEMENT OF HON. PETE OLSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Olson. I thank my colleague from Texas.
    Mr. Chairman, I thank you for holding this hearing on H.R. 
1633, the Farm Dust Regulation and Prevention Act, of which I 
am a proud cosponsor.
    This hearing is critically important to my home State of 
Texas. Texas has been battling and unprecedented drought. In my 
hometown of Sugar Land, we are almost 2 feet behind our annual 
rainfall. In addition, wildfires have burned 3.6 million Texas 
acres. Texas farmers and ranchers have been hit particularly 
hard by the drought and the fires. And to think that the EPA is 
attempting to regulate farm dust now or in the future is simply 
out of touch with reality. This move would impose devastating, 
unjustified and burdensome regulations on farmers and ranchers 
already struggling in this economy to provide food for an ever-
growing population.
    Mr. Chairman, as you know, farmers and ranchers are the 
backbone of America. We must give them the tools and certainty 
to plan for the future so they can succeed.
    I welcome all of our witnesses here today, particularly my 
colleagues from South Dakota and Virginia. I look forward to 
your testimony. I yield back.
    Mr. Whitfield. Thank you very much.
    At this time I recognize the ranking member of the full 
committee, Mr. Waxman of California, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman.
    Today's hearing considers yet another bill to allow more 
air pollution, more asthma and more heart attacks, and once 
again, it is a bait and switch. The bill's sponsors say the 
legislation is narrowly targeted to help farmers. In fact, the 
bill is drafted broadly and has sweeping anti-environment 
effects.
    We are going to hear today that we must pass H.R. 1633 to 
stop EPA from regulating farming. This isn't just nonsense. It 
is pure fantasy. EPA does not regulate farming practices to 
reduce dust and has expressed no intention of doing so in the 
future. EPA has set standards for the levels of coarse 
particulate matter in the ambient air because there is 
scientific evidence that this pollution causes serious health 
effects. Coarse particulate matter, or PM<INF>10</INF>, is 
produced by uncontrolled burning of coal and oil, construction 
and demolition activities, mining, and unpaved roads, as well 
as farm activities. Once EPA sets the standards for ambient 
levels of air pollution, it is up to the States and localities 
to determine how to meet them. It is the States and localities, 
not EPA, that decide which sources must reduce pollution and by 
how much.
    EPA set the current PM<INF>10</INF> standards in 1987, 
during the Reagan administration. As required by the Clean Air 
Act, EPA has recently reviewed the science supporting those 
standards. Based on that review, the Administrator recently 
announced that she intends to propose making no change to the 
Reagan-era PM<INF>10</INF> standards. Now we are being told 
that we need to pass this bill because EPA could change its 
mind and do something the agency has said it has no intention 
of doing.
    If we adopt this standard for legislation, there is no end 
to the bad ideas we could legislate. Should we pass a law 
saying the United States cannot invade Canada? Or one 
preventing the government from outlawing apple pie?
    We are facing real and serious problems that are happening 
right now. Millions of Americans are out of work; our economy 
is stalling; fires, floods and droughts are afflicting our 
Nation. We need to spend our time addressing these real 
challenges, not squandering it on imaginary problems.
    But even though this bill stops something that won't happen 
anyway, that doesn't mean the bill has no effect. H.R. 1633 is 
so broadly worded, it could invalidate EPA's existing standards 
for both fine and coarse particulates. This would have a 
devastating effect on clean air requirements and public health.
    The biggest problem is in section 3, which is not limited 
to farm activities, rural areas, ambient air quality standards 
or coarse particulate matter. It says the Clean Air Act does 
not apply to anything that meets the bill's definition of 
``nuisance dust,'' unless a narrow exception applies, and the 
definition of nuisance dust is sweeping. It includes 
``windblown dust,'' which is undefined and not limited to rural 
areas, and it includes any particulate matter ``generated from 
activities typically conducted in rural areas.''
    Well, mining is typically conducted in rural areas, and 
mining operations have huge equipment that can generate large 
quantities of particulate air pollution. Seventy percent of the 
Nation's power plants are located in rural areas. The 
particulate matter generated by power plants includes not only 
fine and coarse particulate matter, but also particles of 
mercury and lead and acid particles that form from nitrogen 
oxides and sulfur dioxides. Children in rural areas typically 
take the bus to school, and diesel buses generate particulate 
pollution. Under this bill, EPA could have no authority to 
regulate any of this pollution.
    Now, the bill's sponsors will argue that they don't intend 
to exempt mines, power plants or school buses from regulation 
under the Clean Air Act. But as we have seen with so many other 
bills this Congress, the bill language doesn't match the stated 
intent. It is the legislative language that matters, and the 
language could result in a massive increase in dangerous air 
pollution.
    This year, the subcommittee has reported bills to allow 
more carbon pollution, more air pollution from offshore 
drilling, more air pollution from power plants, more air 
pollution from industrial boilers and incinerators, and more 
air pollution from cement kilns. Today's bill is more of the 
same. Americans want their kids to breathe clean and healthy 
air, not another bill to let polluters off the hook.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Whitfield. Thank you, and at this time I would like to 
recognize our members on the first panel, Congresswoman Kristi 
Noem from South Dakota and Congressman Robert Hurt of Virginia, 
primary sponsors of this legislation, and we genuinely 
appreciate your being here with us today, and I will recognize 
each of you for 5 minutes for your opening statement, and 
Congresswoman Noem, we will begin with you.

STATEMENTS OF HON. KRISTI L. NOEM, A REPRESENTATIVE IN CONGRESS 
    FROM THE STATE OF SOUTH DAKOTA; AND HON. ROBERT HURT, A 
  REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

                STATEMENT OF HON. KRISTI L. NOEM

    Mrs. Noem. Sounds great. Thank you, Mr. Chairman and the 
ranking member, who is not with us right now, but the rest of 
the committee members, I appreciate you for having this hearing 
today and for letting us bring forward H.R. 1633, the Farm Dust 
Regulation Prevention Act of 2011.
    I introduced this commonsense bill on April 15th of this 
year with my colleagues, Representative Robert Hurt, Larry 
Kissell and Leonard Boswell, because of the regulatory 
uncertainty that is facing rural America.
    We certainly have challenges in front of us. My bill is a 
bipartisan approach to ending the EPA's regulation of farm dust 
in rural America while still maintaining the protections of the 
Clean Air Act to the public health and welfare. It is not a 
Republican and it is not a Democrat issue. There is broad 
bipartisan support with over 100 colleagues on both sides of 
the aisle sponsoring this bill. And the committee will see in 
the record that there is also over 100 agriculture- and 
research-based organizations who have written in support of the 
bill as well.
    As this committee knows, there is growing concern that 
excess regulations are hampering economic growth and job 
creation across the country. In my home state of South Dakota, 
this is a huge concern for farmers and for ranchers and small 
business owners who are struggling to stay afloat in an already 
stressed economy. One of the most overwhelming concerns that I 
hear about from farmers every day and ranchers back home is the 
overbearing regulations coming out of the EPA, including the 
regulation of farm dust. Their concern is certainly not 
unwarranted.
    Under the Clean Air Act, the EPA is responsible for setting 
the National Ambient Air Quality Standards for certain 
pollutants. This includes particulate matter, which is broken 
down into both fine and coarse particulate matter, commonly 
known as dust. The Administrator of the EPA, Lisa Jackson, must 
set the National Ambient Air Quality Standards that States must 
meet or be designated as nonattainment areas. The goal of these 
standards is to protect the public from harmful pollutants like 
industrial soot and car emissions common in urban areas, which 
I certainly support. The EPA measures the amount of particulate 
matter, or dust, in the air through monitoring devices that are 
placed throughout the country. At least every 5 years, the 
Administrator must review those standards and decide if they 
want to keep the current standard, or potentially adopt a more 
stringent standard. As this committee is aware, the EPA is 
currently in the process and in the midst of another review.
    Under current law, the EPA's standards include all kinds of 
dust, including dust generated from ag activities and the dust 
that is typical in rural America. This type of dust is 
naturally occurring and includes soil, windblown dust or dust 
that comes off of dirt roads. I call it farm dust. This is 
completely different than the type of dust typical in urban 
areas which has been shown to have adverse health effects.
    My legislation specifically focuses on rural dust. It 
allows the standard to apply unchanged in urban areas. Farm 
dust is a fact of life in rural America and, unlike urban dust, 
has not been shown to have a significant health concern. 
Including farm dust in the National Ambient Air Quality 
Standards regulations causes great concern and uncertainty for 
farmers and other resource-based industries in rural America.
    I would like to clear up the myth that EPA currently does 
not regulate farm dust. Farmers and ranchers are already 
subject to the standard for dust in nonattainment areas like 
Arizona. There are people in Arizona that certainly know the 
impact that this has on businesses. It can cost some producers 
in that State over $1,000 a day to comply with dust standards.
    On September 17, 2011, a Des Moines Register story tells 
the story of Kevin Rogers, who is going to testify here later 
today and tell his personal story. He is a farmer from outside 
of Phoenix, Arizona. If the wind is blowing too much, he has to 
park his tractors, he has to park his combines so that he 
doesn't kick up too much dust. As a lifelong farmer and rancher 
myself, I certainly understand the impact this can have when 
you have a job to get done and you have a business to run. And 
as Kevin puts it, ``It is a difficult thing when the government 
is in the middle of every single thing that we are doing.'' We 
need to put an end to regulation of farm dust and prevent its 
expansion into the future.
    Regulation of farm dust is a problem today and will be more 
of an issue if the EPA continues to have opportunities to make 
more stringent standards into the future. The inclusion of farm 
dust in the EPA's National Ambient Air Quality Standards will 
continue to be a problem until legislation is enacted to ensure 
that farm dust is treated differently. EPA is well aware that 
it cannot under current law differentiate between dust coming 
from rural areas or urban areas, and while officials in the EPA 
continue to say that they have no intention of regulating farm 
dust, the EPA does regulate farm dust and has no plan to exempt 
naturally occurring farm dust from their regulations.
    This bill certainly provides a solution. It gives us the 
ability to differentiate between naturally occurring rural dust 
and that that is typically occurring in urban areas, and also, 
what it does is, it provides immediate relief for farmers in 
rural areas by preventing any changes to the current standards 
for 1 year. Secondly, it provides flexibility for States, 
localities and tribes to regulate farm dust and nuisance dust 
themselves.
    I certainly appreciate the opportunity to testify before 
you today, and I will certainly stick around and answer any 
questions that the committee may have for me.
    [The prepared statement of Mrs. Noem follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.007
    
    [GRAPHIC] [TIFF OMITTED] T6176.008
    
    [GRAPHIC] [TIFF OMITTED] T6176.009
    
    [GRAPHIC] [TIFF OMITTED] T6176.010
    
    [GRAPHIC] [TIFF OMITTED] T6176.011
    
    Mr. Whitfield. Thank you very much.
    Mr. Hurt, you are recognized for 5 minutes.

                 STATEMENT OF HON. ROBERT HURT

    Mr. Hurt. Thank you, Mr. Chairman. It is an honor to be 
with you, and I thank you for the invitation to be here to talk 
about H.R. 1633. It is an honor to be here with Representative 
Noem, and I appreciate her leadership on this as well.
    I represent Virginia's 5th District, a primarily rural area 
which includes most of central and Southside Virginia, and is 
larger than the State of New Jersey. In the 5th District, we 
have a proud heritage in agriculture, manufacturing and other 
resource-based industries that provide good-paying jobs for 
thousands of Virginians.
    Dust is a necessary byproduct of the hard work the farmers 
and businesses in my rural district perform every day. These 
are the people who are struggling to survive, to grow, and to 
create jobs during this stalled economic recovery. That is why 
the EPA's national standard for fugitive dust, which falls 
under the Clean Air Act's National Ambient Air Quality 
Standards for coarse particulate matter is so troubling to the 
people that I represent. It is yet another example of the 
expansion of Federal Government and the uncertainty that 
Washington continues to impose upon our family farms, our small 
businesses and our rural communities.
    That is why H.R. 1633 is necessary. The bipartisan 
legislation will help create a better economic environment for 
job creation by replacing the current Federal standard for dust 
that comes from driving on unpaved roads, working in 
agricultural fields and similar activities in rural America.
    H.R. 1633 provides relief from the more stringent Federal 
standard for coarse particulate matter recommended in the April 
2011 policy assessment prepared by the EPA staff. It also gives 
States and localities the flexibility to set a standard for 
dust if they choose. More important, it keeps the Federal 
Government out of the business of over-regulating naturally 
occurring dust unless the EPA can prove substantial adverse 
public health effects caused by dust and can provide a rigorous 
cost-benefit analysis on the need for such regulation.
    While I applaud EPA Administrator Lisa Jackson's recent 
promise that she will not propose a more stringent standard for 
coarse particulate matter, I remain concerned about the 
uncertainty of the rulemaking process where these rules can be 
modified. I am also troubled by the comments of some officials 
in the administration to discredit the issue of Federal dust 
regulation, including Secretary of Agriculture Tom Vilsack who 
wrote that the ``regulation of farm dust is another frequently 
repeated myth.'' After reviewing the EPA's 2006 Federal 
standards for coarse particulate matter, which by definition 
includes dust, I respectfully disagree with the statement that 
this is a myth.
    I know that farmers and business owners in the 5th District 
disagree with this assessment of dust regulation as well. When 
traveling the 5th District last year, I spoke with a small 
business owner who was warned by a State regulator about the 
amount of dust that was coming off of his property. When this 
business owner questioned further about the regulator's concern 
over fugitive dust, the regulator replied that the business 
needed to take active measures to decrease the dust coming from 
the dirt driveway leading in and out of his facility.
    It also appears that the Sierra Club would take issue with 
the administration's statements that Federal dust regulations 
are a myth as well. When discussing a petition it filed with 
the Virginia Air Pollution Control Board in my home State, 
which was ultimately dismissed, by the way, the Sierra Club 
alleged that the levels of dust it measured on a road in 
southwest Virginia were above the national health-based 
standard promulgated by the EPA. It is difficult to understand 
why the Sierra Club would take such action if the Federal 
Government mandates for fugitive dust are a myth.
    While it is true that the EPA and State regulatory agencies 
have not set up monitors at every family farm and every unpaved 
road, the Sierra Club has shown one way in which these national 
standards for dust regulation continue to provide uncertainty 
for rural America.
    Because of these dust regulations, rural farming and 
business operations can face the threat of unnecessary 
harassment, regulation and litigation by private actors or 
State and Federal regulators. Additionally, companies 
throughout the 5th District and the country are required to 
comply with the Federal standard for dust in order to obtain 
permits, such as those issued by the Virginia Department of 
Environmental Quality as required in its State Implementation 
Plan with the EPA.
    This is why Congress must act in a bipartisan fashion to 
pass H.R. 1633 and assure our farmers and our rural industries 
that naturally occurring dust will not be subject to expanded 
Federal regulation. When it comes to dust, the EPA and the 
Federal Government should not mandate a one-size-fits-all 
standard that could eventually lead to lost production. With 
unemployment rates nearing 20 percent in some areas of 
Virginia's 5th District, we simply cannot afford to continue to 
perpetuate unnecessary regulations and uncertainty for the 
farmers and businesses in our rural communities.
    I thank the chairman and I thank the ranking member again 
for inviting us to appear. I thank the subcommittee for 
considering our bill. I appreciate the opportunity to testify 
this morning and look forward to any questions.
    [The prepared statement of Mr. Hurt follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.012
    
    [GRAPHIC] [TIFF OMITTED] T6176.013
    
    [GRAPHIC] [TIFF OMITTED] T6176.014
    
    [GRAPHIC] [TIFF OMITTED] T6176.015
    
    [GRAPHIC] [TIFF OMITTED] T6176.016
    
    Mr. Whitfield. Well, thank both of you for your testimony. 
We appreciate your taking time to talk about your legislation, 
and I was delighted to hear Ms. Noem indicate that you do have 
bipartisan support. How many cosponsors of this bill do you 
have?
    Mrs. Noem. Well, there are 100 cosponsors that are signed 
on to the bill. There also has been a lot of support shown over 
in the Senate side as well. I mean, it is a commonsense bill 
that we certainly recognize could be addressed--the concerns 
could be addressed through this legislation.
    Mr. Whitfield. And has a similar bill been introduced on 
the Senate side?
    Mrs. Noem. You know, there has been a bill that has been 
talked about. I am not certain if the sponsor is continuing to 
pursue it.
    Mr. Whitfield. But when we say that EPA is not regulating 
coarse particulate matter, of course, in any nonattainment 
area, if the State does not have a State implementation plan, 
the Federal Government certainly has the authority to step in. 
Is that correct, Mr. Hurt?
    Mr. Hurt. Absolutely, and I would like to maybe address 
some of the concerns raised by Mr. Rush and Mr. Waxman, that 
section 3, it does allow for the Federal Government to come in 
but under circumstances that I think any American would find 
very reasonable, and that is, when it is proven that there are 
substantial health risks and after a cost-benefit analysis that 
this makes sense, and I think that from what I have heard 
across my district, that is exactly the kind of view that 
Americans and 5th District Virginians would like to see going 
on here in Washington. And it is also important to note that 
this does nothing to change the particulate matter 10 and PM2.5 
standards, the emissions that the ranking member and Mr. Waxman 
discussed, would still be regulated under or viewed through 
those different standards.
    Mr. Whitfield. You know, it is interesting we find 
ourselves here discussing the regulation of dust. I know that 
there are some studies that say well, there's some correlation 
between particulate matter, coarse particulate matter, and 
health, and then there are other studies that indicate there is 
no causal relationship whatsoever, and yet--and I know we have 
a gentleman from Arizona, I believe, in the next panel, but it 
is my understanding that under the State implementation plan of 
Arizona, in some instances on windy days the farmers are 
literally prevented from farming. Is that your understanding?
    Mrs. Noem. Mr. Chairman, yes, it is my understanding, and 
that would be the facts that they face every single day, and I 
think there is a clear definition and difference between urban 
dust, which is the kind of dust that has been proven 
scientifically to create the adverse health effects that a lot 
of the questioning has come from. There hasn't been that kind 
of scientific research and data that has shown the detrimental 
effects of this nuisance dust, which we are addressing in this 
piece of legislation. We are talking about dirt, soil, matter 
that occurs naturally through the course. Some of the concerns 
that were brought up in previous statements did happen to come 
from coal-fired plants, from mining, other situations such as 
that, scientific research has proven that that is very 
different than the type of rural dust that we are talking about 
with this piece of legislation.
    Mr. Hurt. If I could just comment on that, I think also one 
of the things that I have discovered in working on this 
legislation is that at some--we have standards, but at some 
level at the end of the day, if you can't abate the dust, the 
only way to stop it is to stop production or stop driving on 
the roads, and what does that translate to? That translates to 
lost jobs.
    Mr. Whitfield. Well, one thing that I think also is 
beneficial in your legislation, my understanding under the 
Clean Air Act, there really is no definition of nuisance air so 
it could be whatever it could be. At least in this legislation 
make an attempt to define it, which may not suit everyone but 
that would be an area that we would have an opportunity to work 
with others to at least have a definition of that, which I 
think it is important.
    Mrs. Noem. Yes, Mr. Chairman, I would agree. I think this 
piece of legislation the EPA should have no problem with. I 
really do. I think they should be very supportive of this 
because it simply says that they are not going to change their 
standards for a year, which they have already said that they 
are not going to do, and then it provides that definition. 
Rural dust and urban dust are not the same thing, and I think 
it would be very helpful to them and their processes and how 
they evaluate the ways that they approach enforcing the Clean 
Air Act to have that definition in place because they are very 
different, and the research behind them shows that.
    Mr. Whitfield. Well, some people make the argument well, 
EPA is not going to regulate it anyway so we don't need this 
legislation, but we know for a fact that entities file a lot of 
lawsuits over at EPA, and whether EPA intends to do something 
or not, they frequently find themselves in lawsuits and 
frequently they enter into consent decrees in many instances 
agreeing with the plaintiff and then it becomes a court order 
and that is another frustrating thing. We find the court in 
many of our environmental regulations, their decisions as we do 
regulations coming out and initiated by EPA.
    Mrs. Noem. Yes, Mr. Chairman, this bill provides certainty 
and it provides certainty to a risky business that a lot of 
farmers and ranchers engage in and the people in rural areas 
are trying to keep their doors open and provide for their 
families, and this shows them that we are going to give them 
the certainty they need to be protected from those types of 
sudden regulations that may come up because of lawsuits and 
environmental issues.
    Mr. Whitfield. Well, thank you all very much.
    At this time I recognize Mr. Rush for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman, and I want to 
also thank my colleagues, Representative Noem and 
Representative Hurt, for being here today, and I want you to 
know that my grandfather was a farmer. I was raised in my early 
years on a farm, and I am pro-farmer, and I see you are the 
sponsor of this bill, and I want to focus my questions on the 
bill.
    Representative Noem, many on the minority side are 
concerned with some of the language that is not clearly defined 
in section 3. Specifically, the ``nuisance dust'' as defined by 
``other activities typically conducted in rural areas'' is 
causing concern for me and others because it may exempt many 
other industrial activities from Clean Air Act regulations. You 
are the sponsor of H.R. 1633, and is it your intention to 
provide exemptions for other activities not associated with 
standard agricultural practices in section 3, and if not, would 
you be amenable to modifying this language in order to make 
clear the bill's intention?
    Mrs. Noem. Well, thank you for the question, Representative 
Rush, and I certainly believe that the title of the bill and 
the language of the bill is very clear that it means to address 
farm dust and nuisance dust throughout the piece of 
legislation. I think that some of the interpretation that it 
goes too far and might include things such as coal ash and 
other harmful pollutants is that my bill simply does not exempt 
anything from regulations. It simply gives States and 
localities the flexibility to regulate dust in rural areas on 
their own. Now, if there are no local regulations that address 
in this place Federal regulations will certainly apply if the 
EPA--if the dust proves that it has negative health benefits 
and if it does rigorous cost-benefit analysis. So I believe the 
legislation as it stands today with the title that it has and 
with the language it has within it clearly defines nuisance 
dust and what is to be regulated and that the States and local 
governments certainly have the opportunity to address the 
concerns that may be particular in one area.
    Mr. Rush. Well, you feel quite strongly that your bill is 
necessary in light of the fact that EPA has already come out 
and publicly stated that it would not propose any changes to 
the current standard of 10 PM or 10 micrometers for coarse 
particulate matter. Can you explain why you feel so strongly?
    Mrs. Noem. I feel so strongly because I think the fact that 
if there is a piece of legislation out there that guarantees 
that EPA will not take any action for the next year, that that 
is a benefit to our small farmers and producers across this 
country. It is not that they wouldn't trust the EPA, but I 
certainly think that they would appreciate knowing that there 
is a guarantee on no changes for the next year.
    The second part of this bill is that it actually does 
define the difference between rural dust, nuisance dust and 
urban dust simply because of some of the testimony that I gave 
earlier, that there is a big difference between the nuisance 
dust and that it has proven to not have the negative side 
effects and health benefits, or detrimental effects that some 
of the urban dust does that you referenced when you gave your 
opening statement. There is a big difference between those two 
different types of dust that occur in this country, and that 
definition and clarity between the two will certainly help the 
industry as well.
    Mr. Rush. Is there any, besides industrial dust and 
particulate matter, is there any other dust classification that 
are exempted or included in your legislation?
    Mrs. Noem. Well, I don't believe so. As far as what this 
simply does is to put that definition into place in statute 
that there is a nuisance dust definition and what is included 
in that is the naturally occurring dust particles that would 
happen and the difference between urban dust, and this gives 
clarity to the EPA. This makes their job easier. They can look 
at each of these two different types of dust and know 
specifically how to define them and what the adverse health 
effects are on those, and then it also allows them the 
opportunity to come into area if the State and local 
governments do not.
    Mr. Rush. Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. Thank you, Mr. Rush.
    It is the custom of this committee that the chairman and 
ranking member will ask other Members questions, so we have 
completed that, and I want to thank you all once again for 
introducing the legislation and for----
    Mr. Waxman. Mr. Chairman, you are not going to allow other 
members to ask questions of this panel?
    Mr. Whitfield. Would you like to ask some questions?
    Mr. Waxman. I would like to ask some questions.
    Mr. Whitfield. Without objection, then I recognize the 
gentleman for 5 minutes.
    Mr. Waxman. I just want to take issue with some of the 
things that have been said because I think you oversimplified 
it to the point where I think your conclusions are incorrect. 
First of all, the title of the bill has no legislative effect. 
What has legislative effect is the wording of the bill. And you 
made a couple statements, Representative Noem, that I take 
issue with. You said there is no proven difference between--
there is a proven difference between urban and rural dust.
    Mrs. Noem. I said--thank you, Representative Waxman. I 
appreciate that. What my statement was or should have been was 
that the scientific research is very different showing the 
detrimental effects of urban dust versus rural dust, that there 
is much different research data that is available on the 
detrimental health effects of urban dust as where----
    Mr. Waxman. The Clean Air Act doesn't regulate dust. The 
Clean Air Act regulates harmful pollutants, and in this case, 
we are talking about two kinds of pollutants. We are talking 
about fine particulates and coarse particulates. The standard 
was originally set when President Reagan was President, and it 
has been reviewed but the basic standard has been in place.
    Now, you said that there is no proven adverse health effect 
from rural dust. If that rural dust is produced by farm 
machinery, that could have harmful impact, couldn't it?
    Mrs. Noem. It could, but we could speculate all day. What I 
prefer to operate with is the facts that we have in front of 
us.
    Mr. Waxman. Well, the facts we have in front of us is your 
bill defines this nuisance dust which is a new term in law that 
you would propose to put in law, and it says particulate matter 
generated from natural sources, OK, unpaved roads, agricultural 
activities, earth moving or activities typically conducted in 
rural areas, and I mentioned in my opening statement that a lot 
of things are conducted in rural areas, which could add to the 
particulate matter which particularly in the area of fine 
particulates, there is a genuine threat to human health.
    The point that I am raising is that your intentions seem to 
be, both of you, pretty reasonable. You don't want the dust in 
rural areas regulated, as Congressman Hurt said. If you are 
going to try to stop the dust coming from farms, you would have 
close down the farms and lose the jobs. That doesn't make any 
sense at all. But the problem is, nobody is proposing to do the 
things that you fear might happen. If you had a 1-year period 
of time in which there could be no regulation on coarse 
particulates coming from dust in the rural areas, well, that 
could give somebody certainty for a year. Nobody is planning to 
do it anyway. But I fear that your bill is drafted in a way 
that goes much further, and it doesn't sound like that that is 
your intention.
    Representative Noem, I mentioned in my opening statement 
that it is a nonexistent problem and we have so many real ones 
that should be addressed. There was an editorial my staff 
brought to my attention from a newspaper. It is the largest 
newspaper in South Dakota, and it said, ``There are important 
issues at the Federal level right now that will have direct 
impact on our States so it is disappointing to see 
Representative Kristi Noem continue her fight against a made-up 
problem like the potential for farm dust regulations by the 
Environmental Protection Agency. Dust has become a lightning 
rod for some Republicans, drumming up fear in farming 
communities that more Federal Government intrusion and over-
regulations coming to take money out of their pockets. Noem 
proposed legislation that would ban the EPA from regulating 
farm dust for a year, and similar legislation was advanced by 
Senator Mike Johanns. The problem is that the EPA has 
repeatedly and at every turn said it has no intention of 
regulating farm dust. On Monday it went as far as to write a 
letter to Congress stating it would not be regulating dust 
kicked up by combines. That should put the issue to rest.''
    With those multitude of assurances that this is a phantom 
issue, what is your response to this editorial?
    Mrs. Noem. Well, Representative Waxman, that editor of that 
newspaper certainly doesn't represent my farmers and ranchers 
across South Dakota, and it is clear that he doesn't understand 
the bill, because in that editorial he didn't address the fact 
that it is going to provide a clear definition between nuisance 
dust, rural dust and urban dust. He simply----
    Mr. Waxman. Let me take exception to----
    Mrs. Noem. One of the----
    Mr. Waxman. Excuse me. Let me take exception. You state 
that as a fact but there is nothing in the law that says this 
dust is from rural areas, this dust from urban areas, it is 
different. The difference is only the amount of particulate 
matter in the region and particularly if it's nonattainment, 
which is not attaining what is the health standard.
    When I was a young member of the State assembly in 
California, I heard that there might be a freeway coming 
through--I ask for 30 seconds more--and I went out of my way to 
make sure that we fought that freeway and it was stopped. It 
turned out they never intended it but the people in my district 
thought I stopped it anyway. That is a good thing to do 
politically, but when you change something like the Clean Air 
Act, a lot of unintended consequences, I fear for that. If 
there is a chance to go through this legislation, maybe we can 
change it in some way, but I fear that your bill goes too far.
    Thank you, Mr. Chairman.
    Mr. Whitfield. Mr. Waxman, your question--oh, yes, Ms. 
Noem.
    Mrs. Noem. Well, I just wanted to make a statement that 
certainly the people in South Dakota recognize, widespread they 
recognize the need for this piece of legislation or else I 
wouldn't be bringing it, but they have been talking to me about 
it every single meeting that I have that people deal with rural 
industries in South Dakota. And I think when you hear the 
personal story of Kevin Rogers a little bit later you will 
really----
    Mr. Waxman. But that is another State where there is a 
nonattainment.
    Mrs. Noem. But certainly right now----
    Mr. Waxman. When people are fearful, you ease the fears.
    Mr. Whitfield. OK.
    Mr. Waxman. Whether it is realistic or not.
    Mr. Whitfield. We all get excited about dust, but let us 
calm down here a minute.
    Mr. Waxman. Settle the dust.
    Mr. Whitfield. Yes, let us settle the dust here.
    But Mr. Waxman raised some dust, and now I would recognize 
Mr. Shimkus for 5 minutes of questions.
    Mr. Shimkus. Thank you, Mr. Chairman.
    A couple things. Kristi, how far is your home from a paved 
road?
    Mrs. Noem. Well, my home particularly is not too far. It is 
about a quarter of a mile from a paved road. But our farm is 
about 8 miles from a paved road.
    Mr. Shimkus. And is that chaff, as I would call it, or is 
it dust? Is it a dirt road or is it limestone rock road?
    Mrs. Noem. Oh, it is a dirt road. It is a gravel road.
    Mr. Shimkus. So it is gravel, and if there is an air 
monitor placed on that gravel road, which is 8 miles from a 
paved road, the gravel road probably would not be in attainment 
on the PM<INF>10</INF> standard when the big four-wheel-drive 
hemi pickup truck with the horse-drawn trailer goes down that 
road. Isn't that correct?
    Mrs. Noem. I would agree. I would say virtually every 
single field during harvest time would be in nonattainment.
    Mr. Shimkus. And I have a photo that I showed Administrator 
Jackson when she first testified, and I will probably pull it 
up later on, and it is this time of the year when we are 
finishing cutting of beans, and it shows a plume. Now, some 
people would say--oh, there it is, right there. That is right 
outside my hometown just north of Collinsville. Now, if you had 
an air monitor right behind that, it would probably set off. 
But that is not diesel, that is just chaff. That is organic. 
That is leaves, that is stalk, and that is what we call cutting 
of beans.
    Mr. Whitfield. Is that natural dust?
    Mrs. Noem. Yes.
    Mr. Shimkus. So my point is, in rural America where the air 
monitor is could determine it, and the difference between urban 
America and rural America is that dust cloud will disperse way 
before it is in any concentration that would kick off. So a 
concern, and so the additional regulation imposed is a severe 
threat to rural America. You have how many agriculture groups 
in support of this bill?
    Mrs. Noem. Over 100.
    Mr. Shimkus. Are they just crazy? I mean, are they just 
meddling? They have nothing else to do than be worried about 
the EPA?
    Mrs. Noem. Well, Representative Shimkus, if I could say one 
thing that Representative Waxman continued to say over and over 
is that dust is not currently regulated, and it is. The EPA 
does regulate dust, and the staff did recommend tightening 
those standards. So when he believes there is no concern, there 
is valid concern in rural America.
    Mr. Shimkus. Robert, do you want to add anything?
    Mr. Hurt. Well, I would say a couple of things. You know, 
when we were asked whether or not we need this bill, to me, the 
question ought to be, why don't we use our legislative 
prerogative to guide policy in this country. I think if you 
talk to the people I represent, they say for far too long the 
Congress has wholesale given its legislative prerogative over 
to agencies like the EPA who are not elected, who are not 
accountable to the people. So why on earth would not we take 
our responsibility as being a voice for the people seriously 
and what objection could one have to exercising that 
legislative authority that has been given to us by the people 
we represent?
    Going back again to some of the questions that have been 
asked about the actual standard, there is nothing unreasonable 
about section 3 and the standard that is proposed. It just says 
there must be shown substantial health risk and that there is a 
cost-benefit analysis that goes through and proves that the 
benefits outweigh the costs. So I don't think anybody is 
suggesting that you have--and I in my district, my rural 
district, we have power plants. No one is suggesting that 
emissions from power plants be exempted in any way, and this 
bill would not do that.
    And then finally, as it relates to the fear mongering, and 
I take issue and I wish Mr. Waxman was here, I take issue with 
his suggestion that this is somehow politically motivated. I 
talk to farmers in my district all the time whose fears of 
government regulation are real and they translate to lower 
productivity and fewer jobs, and all they are trying to do--you 
know, I have a farmer in Nelson County, he is a fruit grower. 
He says, you know, I get regulated by the Department of Labor, 
Department of Transportation, the IRS, the USDA, the EPA. He 
said all I am trying to do is grow peaches, I have been doing 
that for five generations, how hard can it be.
    Mr. Shimkus. Let me reclaim my time and just recognize Cory 
for a unanimous consent request.
    Mr. Gardner. Thank you. And I just would like to ask 
permission for the record to submit letters of support from 
well over 100 different organizations that support H.R. 1633: 
NFIB, chambers of commerce, ag groups, farm organizations, 
business groups. Yield back my time.
    Mr. Whitfield. Without objection. Thank you very much.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.017
    
    [GRAPHIC] [TIFF OMITTED] T6176.018
    
    [GRAPHIC] [TIFF OMITTED] T6176.019
    
    [GRAPHIC] [TIFF OMITTED] T6176.020
    
    [GRAPHIC] [TIFF OMITTED] T6176.021
    
    [GRAPHIC] [TIFF OMITTED] T6176.022
    
    [GRAPHIC] [TIFF OMITTED] T6176.023
    
    [GRAPHIC] [TIFF OMITTED] T6176.024
    
    [GRAPHIC] [TIFF OMITTED] T6176.025
    
    Mr. Whitfield. Once again, thank you all for taking time to 
be with us. We appreciate it and look forward to working with 
you on this issue. Thank you.
    At this time I will call up the Honorable Gina McCarthy, 
the Assistant Administrator for Air and Radiation, U.S. 
Environmental Protection Agency. Ms. McCarthy, we welcome you 
back to Capitol Hill, which I am sure you enjoy coming up here 
a great deal.
    Ms. McCarthy. It is always my pleasure, Mr. Chairman.
    Mr. Stearns. Sorry we don't have some refreshments for you 
this morning.
    We do appreciate your being here very much to testify on 
H.R. 1633, and at this point I would recognize you for 5 
minutes for your opening statement.

 STATEMENT OF REGINA MCCARTHY, ASSISTANT ADMINISTRATOR FOR AIR 
         AND RADIATION, ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCarthy. Thank you, Chairman Whitfield, Ranking Member 
Rush, members of the subcommittee. I appreciate the opportunity 
to testify on the Farm Dust Regulation Prevention Act of 2011. 
This sweeping bill could roll back Clean Air Act protections 
and adversely affect public health in urban, suburban and rural 
areas.
    This bill has been sold as a narrow one. If all this bill 
is intended to do is prevent the EPA from tightening the coarse 
particle standard, the bill is simply unnecessary. 
Administrator Jackson committed in an October 14, 2011, letter 
that she is prepared to propose to keep the PM<INF>10</INF> 
standard, or coarse particle. The National Ambient Air Quality 
Standard will remain unchanged if the Administrator's proposal 
as intended is moved forward. I am hopeful that this 
announcement ends the myth that the agency plans to tighten the 
regulation of farm dust.
    Whether intended or not, we are concerned that this bill 
does far more than its sponsors have indicated. It could 
prevent EPA from regulating power plants or other major 
industrial sources of pollution in urban and suburban areas as 
well as in rural areas. This is because section 3A takes away 
Clean Air Act authority to regulate nuisance dust and then 
defines nuisance dust very broadly, and it includes particulate 
matter generated from activities typically conducted in rural 
areas. This exemption would cover both coarse and fine 
particles emitted from anywhere in the country. It might 
include pollutants like NOx and SOx that form fine particles. 
This would appear to preclude EPA from regulating particle 
pollution from activities such as power plants, mining 
operations, industrial operations and construction anywhere in 
the country because those activities are not atypical to occur 
in rural areas. It could even call into question EPA's ability 
to enforce tailpipe emission standards that would limit 
particle pollution from cars, trucks and buses because those 
same cars, trucks and buses typically drive in rural areas. In 
other words, the farm dust bill might forever bar the EPA from 
limiting emissions of coarse particles, fine particles, sulfur 
dioxide, nitrogen oxide and mercury from power plants, 
industrial sources and maybe even motor vehicles.
    We are also concerned that H.R. 1633 could block revision 
of fine particle standards and implementation of existing fine 
and coarse particle standards. Since the existing particle 
programs did not distinguish between nuisance dust and other 
particles, the bill raises the issue of whether the EPA could 
enforce or maintain existing fine or coarse particle pollution 
standards. The term ``nuisance dust'' is not a scientific term, 
which would make it very difficulty to incorporate an exclusion 
of nuisance dust into a scientifically based program. This 
could raise practical concerns. It is unclear how one would 
design a monitor that measured fine particles except for 
nuisance dust and it is unclear how the agency could implement 
particle pollution programs without a scientifically sound 
monitoring network, and it is certainly unclear what the costs 
would be to States or local communities to put in that type of 
a monitoring system could one be designed and developed.
    The existing fine and coarse particle pollution reduction 
programs are important for public health. While nuisance dust 
sounds like it is merely inconvenient, it includes particle 
pollution that is harmful to public health. When we breathe, 
both coarse and fine particle pollution can reach the deepest 
region of our lungs and move past our bodies' filtering 
systems. We have a health-based standard for particles smaller 
than 10 micrometers since 1987. That is 24 years. Coarse 
particles have been linked to a variety of adverse health 
effects including hospital visits related to cardiovascular and 
respiratory diseases and premature death. This is the standard 
that the Administrator has announced she is prepared to propose 
to retain, not propose to change.
    In 1997, EPA added a health-based standard for fine 
particles, which cause serious health effects. Nationally, EPA 
estimates that exposure to fine particles results in, among 
other effects, 130,000 to 320,000 excess deaths in adults, 
110,000 emergency room visits by children, 2.5 million cases of 
exacerbation of asthma, and 18 million lost workdays each year.
    I have briefly discussed some of the potential consequences 
of H.R. 1633. As written, this bill would significantly weaken 
EPA's authority under the Clean Air Act and significantly cause 
and preclude us from preventing public health protections that 
are necessary for the American people. If these consequences 
aren't intended, it would be best to revise the bill to avoid 
the confusion, litigation and the concerns that I have raised. 
I hope this information that I presented as well as the 
Administrator's October 14, 2011, letter clarifies EPA's 
intentions and obviates the need for this legislation. It is 
simply not necessary at this time to block the tightening of 
the PM<INF>10</INF> standard which the Administrator has very 
clearly indicated that she has no intention at this time of 
proposing.
    Thank you very much.
    [The prepared statement of Ms. McCarthy follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.026
    
    [GRAPHIC] [TIFF OMITTED] T6176.027
    
    [GRAPHIC] [TIFF OMITTED] T6176.028
    
    [GRAPHIC] [TIFF OMITTED] T6176.029
    
    [GRAPHIC] [TIFF OMITTED] T6176.030
    
    [GRAPHIC] [TIFF OMITTED] T6176.031
    
    [GRAPHIC] [TIFF OMITTED] T6176.032
    
    [GRAPHIC] [TIFF OMITTED] T6176.033
    
    Mr. Whitfield. Ms. McCarthy, thank you for your testimony.
    You heard me say earlier that one of our concerns is that 
it doesn't make any difference what EPA decides or doesn't 
decide. Outside groups file lawsuits on a regular basis against 
EPA, and I think even you would admit and agree that frequently 
the courts' decisions determine what the interpretation of the 
EPA act is and what becomes law. So what our concern is, even 
though Lisa Jackson says no, are you convinced that a third-
party environmental group or some other entity would not file a 
lawsuit?
    Ms. McCarthy. Mr. Chairman, as you know, the Administrator 
has made her intention clear but certainly she can't preclude 
the rights and responsibilities she has under the 
Administrative Procedures Act and the right to listen to 
comment that is received. I would, however, say that the 
Administrator is basing her decision on a wealth of scientific 
information. I have the Integrated Science Assessment right 
here. She has taken the advice of the Clean Air Act Science 
Advisory Committee. She has listened to the staff 
recommendations and she believes that the law gives her 
deference in making these determinations in terms of what the 
science said and what----
    Mr. Whitfield. But you do still understand our concern 
about--how many lawsuits are pending against the EPA right now?
    Ms. McCarthy. There are a number of lawsuits pending but in 
the----
    Mr. Whitfield. There is over 400, I believe, aren't there?
    Ms. McCarthy. In the case of PM<INF>10</INF>, the 
administration has acted a number of times, first under 
President Reagan, second under President Bush and this 
administration. We believe the science is clear and we believe 
that the Administrator's recommendation will hold true.
    Mr. Whitfield. Well, see, we agree with you. We think the 
science is clear also and that is why we think that moving 
forward with legislation would remove any ambiguity whatsoever. 
So that is where we stand on that issue.
    Now, as far as coarse particulate matter, does EPA have the 
authority to regulate coarse particulate matter now?
    Ms. McCarthy. Yes, it does, Mr. Chairman.
    Mr. Whitfield. And if the State implementation plan of a 
noncompliant area does not do so, EPA can step in. Is that 
correct?
    Ms. McCarthy. Well, the EPA would have an obligation to 
step in if a State implementation plan didn't effectively 
address attainment in the way the Clean Air Act requires.
    Mr. Whitfield. And how many States today are regulating 
coarse particulate matter because they are in nonattainment?
    Ms. McCarthy. There are only a very few number of States 
that are regulating PM<INF>10</INF>. It amounts to about 41 
counties. It is a very small area of the country at this point 
in time.
    Mr. Whitfield. Do you believe yourself from the evidence 
that you have read that coarse particulate matter does have an 
impact on a person's health?
    Ms. McCarthy. I do. I do believe that, and I think the 
scientific evidence is quite clear, and we have evidence not 
only that coarse particles that are emitted in urban areas 
cause problems but there is clear scientific evidence that 
distinguishes what we call--what people have called rural dust, 
that that also causes significant public health concerns.
    Mr. Whitfield. Well, if you do believe that even rural 
coarse particulate matter does impact health, why did you all 
decide not to strengthen the coarse particulate matter 
regulation?
    Ms. McCarthy. Well, the Administrator has to establish a 
standard that is requisite to protect public health with an 
adequate margin of safety. The Reagan administration NAAQS 
standards set in 1987, 24 years ago, that was also revisited by 
the Bush administration and that is now being reconsidered by 
this administration, is actually a very sound standard. It is a 
standard that we believe is sufficient to protect public 
health. We believe that there is scientific uncertainty, which 
the Administrator has been looking at and considering that 
would lead her to retain the standard as it is proposed but 
certainly that information is rigorous enough to indicate that 
we should retain the current standard.
    Mr. Whitfield. Now, the current PM<INF>10</INF> standard is 
150 micrograms per cubic meter. Is that correct? Is that the 
current standard?
    Ms. McCarthy. Yes.
    Mr. Whitfield. And then there is a threshold of 99 
percentile. What does that actually mean?
    Ms. McCarthy. Actually, that means--and that is one of the 
issues that has been most confusing because the Clean Air Act 
Science Advisory Committee actually proposed to change the 
standard and the form or actually ask the Administrator to 
consider a change in the standard and the form. The 99th 
percentile just really means that the area could be in 
nonattainment if they exceeded or had events that brought up 
the level of pollution to a certain amount just a few times a 
year and it would trigger National Ambient Air Quality 
Standards. If you lower that percentile, it means it needs to 
be more often and more frequent in order to trigger 
nonattainment.
    Mr. Whitfield. OK. So the standard is 150 micrograms per 
cubic meter and the form is 99 percentile, so if you exceed 
that 1 percent of the time, you are OK, but if you exceed 2 
percent of the time----
    Ms. McCarthy. That is right.
    Mr. Whitfield [continuing]. You violate?
    Ms. McCarthy. That is right.
    Mr. Whitfield. Well, my time is expired.
    I recognize the gentleman, Mr. Rush, for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman, and Ms. 
McCarthy, I want to welcome you again to this subcommittee.
    I got a little bit confused during the questioning from the 
chairman here. It seemed that we were discussing the Farm Dust 
Regulation Prevention Act but it seemed to me like he was 
talking about the EPA litigation prevention act, trying to keep 
EPA from being in court, being litigated in court, and I just 
don't know, do you think that is what our legislative powers to 
keep the EPA out of court?
    Ms. McCarthy. Mr. Rush, I think that we actually are 
authorized to establish National Ambient Air Quality Standards. 
We certainly do that to the best of our ability based on the 
science and the law. Without question, it is often challenged, 
but without question, we win a considerable amount of time 
because we do our jobs well.
    Mr. Rush. And I agree with you, you do do your jobs quite 
well.
    We heard earlier from Representative Noem that the 
scientific research shows a clear distinction between ``urban 
dust'' and ``rural dust'', and H.R. 1633 will make it simpler 
and easier for EPA by defining what nuisance dust is. Does the 
scientific research show a clear distinction between urban dust 
and rural dust? Also, does H.R. 1633 make it easier for EPA by 
defining nuisance dust as it is defined in this bill?
    Ms. McCarthy. The definition of nuisance dust in this bill 
is very broad, and we are very concerned that it could have 
significant spillover impact in terms of our ability to 
regulate pollution from sources well beyond rural areas and 
well beyond agricultural sources, and we are concerned about 
that impact. I would also say that there are significant 
amounts of health studies, and they become more every time we 
look at the data and every time we visit that NAAQS that show 
that coarse particles, whether they are generated in the rural 
areas or they are generated in the urban areas have significant 
health consequences. They deserve to be regulated. The science 
demands it. The law requires it. EPA does that.
    Mr. Rush. Well, so let me just ask you, is the matter that 
is established in 1987 under the administration of President 
Reagan, has that standard been a threat to the farming 
communities in this Nation or has it been helpful?
    Ms. McCarthy. We do not believe that there is any evidence 
that farming has been in any way significantly disrupted by any 
of the National Ambient Air Quality Standards. As you know, 
when we establish a NAAQS, it is a national standard. It is not 
targeted to a specific sector or a specific geographic area. I 
do know since 1987 when this was first proposed, there have 
been identified by States and local air quality districts when 
they implement in nonattainment areas, they implement their 
requirements to look at sources and identify what sources 
contribute to local health consequences. There have been times 
when they have worked with the USDA, they have worked with 
local farmers. They have identified best management practices, 
conservation measures that those farms can put into place that 
would reduce the amount of dust that they admit and still allow 
farming to continue unabated, and there have been instances 
where we have worked in a collaborative way to help that effort 
and that outcome, and it has been an enormously successful 
opportunity for all of us and to make sure that farming can 
continue, that it can continue unabated and we can work with 
them to reduce the amount of dust that is emitted and maintain 
the health standards that are required to protect public 
health.
    Mr. Rush. I only have a few more seconds. There seems to 
be--the 800-pound gorilla in the room seems to be the fear 
factor that is prevalent or that some have alluded to in 
previous testimony at today's hearing. Can you comment on what 
your understanding of the fear factor is and how great is it, 
how significant is it?
    Ms. McCarthy. Well, we heard quite a while ago, Mr. Rush, 
that there was concern in the farming community on the basis of 
the recommendations by the Clean Air Act Science Advisory 
Committee that the Administrator consider a change in the 
standard. What was misunderstood was they were asking for both 
a change in the standard as well as the form. It actually would 
have resulted in fewer counties. It would have been a little 
bit more flexible, not so much sensitive to the high levels as 
much as averaging a little bit in a way that would have 
provided more flexibility. We did six listening sessions with 
the agriculture community immediately to explain to them what 
the process was, that it wasn't the recommendation of the 
staff, that the Administrator didn't make a decision yet, and 
we also talked about all of the work that we have done together 
on farm dust since 1987 and the collaborative nature of that 
process and the impacts that hasn't happened as a result. And 
we will continue that effort, and now that the Administrator 
has made it clear that she is not intending to propose a change 
in that standard, we are certainly hoping that it puts those 
fears to rest.
    Mr. Whitfield. Mr. Shimkus, you are recognized for 5 
minutes.
    Mr. Shimkus. Thank you, and it is great to be with you, 
Assistant Administrator McCarthy.
    Ms. McCarthy. Good to see you too.
    Mr. Shimkus. We have a lot of fun here, and hopefully I 
will be kind and courteous, and again, I appreciate all the 
help that you have given in the past.
    A couple issues. It is true that tier 4 engine regs, which 
has created additional costs for the agricultural community in 
diesel engines. Is that correct?
    Ms. McCarthy. The tier 4 engine rules have been tightened 
and it does require that they look at particulate matter and 
other emissions----
    Mr. Shimkus. So when you have diesel engines operating in 
rural America, you cannot say there is no effect on cost and 
production and operations when you have ratcheted down diesel 
engine emissions on the clean air applications.
    Ms. McCarthy. The engines that we regulate are very large 
engines.
    Mr. Shimkus. I mean, large engines are used in agricultural 
America.
    Ms. McCarthy. I believe that I was referring to dust 
issues, so----
    Mr. Shimkus. Well, I am just trying to----
    Ms. McCarthy. There are definitely requirements in the 
farming community when you have large farms that are 
significant individual sources of pollution and they have to 
achieve the same kind of engine standards that----
    Mr. Shimkus. Right. Production agriculture is large 
operations and large engines, so I just want to put that on the 
record. There is an effect. To say there is no effect, that 
really can't be stated.
    You mentioned 41 counties that you know are in this, and I 
have one of the maps. There are other counties that continue to 
regulate particulate matter on their own. Is that correct? 
Virginia has fugitive dust regulations in Virginia?
    Ms. McCarthy. I am sorry, Congressman. I am not familiar 
with that, but these are the requirements that are attributable 
to the Clean Air Act.
    Mr. Shimkus. Just placing that into the record that there 
are States that are monitoring for dust in States on their own 
outside of the SIP and the requirements of the Clean Air Act.
    The fear factor that my friend mentioned, one of your 
statements in your opening statement said ``at this time.'' 
Using that terminology ``at this time'' creates a fear factor 
in rural America because tomorrow you may. The importance of 
legislation is to codify that to say not at this time, no more 
PM<INF>10</INF>. In fact, the letter that the Administrator 
sent to Lisa Jackson says--I mean Lisa Jackson sent to Debbie 
Stabenow, ``I am prepared to propose retention with no revision 
of the current PM standard and form when it is sent to OMB for 
interagency review.'' Now, the question is, so the 
Administrator must believe that PM standard as it is currently 
operated under the EPA, that it protects public health. Is that 
correct?
    Ms. McCarthy. Yes, adequate with an adequate margin of 
safety.
    Mr. Shimkus. And you would agree with that?
    Ms. McCarthy. Yes.
    Mr. Shimkus. Good. I want to have that on the record 
because that is part of this whole debate of the concern of 
ratcheting it down. You heard during the opening questioning, 
and just the difference of concentration. A lot of our 
experience here on the committee is focusing on concentrated 
amounts that affect human health. Do you agree that 
concentrated particulate matter can be harmful to human health?
    Ms. McCarthy. I believe that exposure to particulate matter 
can be----
    Mr. Shimkus. In any concentration or in certain 
concentrations?
    Ms. McCarthy. It depends on both. It depends on the 
concentration as well as the size of the particle.
    Mr. Shimkus. But you just said PM<INF>10</INF> is safe.
    Ms. McCarthy. No, no, I said that the National Ambient Air 
Quality Standard was appropriate as a safeguard for public 
health protection. That does not mean that I think that it is 
safe for exposures at all levels. Certainly our goal is to 
achieve the National Ambient Air Quality Standard that is 
required under the Clean Air Act. I am making no statement 
about my independent knowledge of health consequences 
associated with exposures beyond that.
    Mr. Shimkus. Thank you, Mr. Chairman. My time is expired.
    Mr. Whitfield. Yes, sir. At this time I will recognize the 
gentleman from California, Mr. Waxman, for 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    Ms. McCarthy, we heard from some people that the 
Republicans want to make commonsense changes to the Clean Air 
Act but in reality, I fear they may be making some radical 
changes and you said in your opening statement the bill does 
far more than prevent a change in the coarse particulate 
standard. We believe it could result in far-reaching damage to 
the bedrock public health protections in the Clean Air Act.
    Now, this includes a broad definition of so-called nuisance 
dust that would be exempt from EPA regulation. The bill lists 
several examples of what falls under the category of nuisance 
dust including ``earth moving.'' The bill doesn't limit these 
farms. Ms. McCarthy, could the operations of a large, open pit 
mine fall under the category of earth moving?
    Ms. McCarthy. Yes.
    Mr. Waxman. In fact, during the next panel, we are going to 
hear from the Coarse Particulate Matter Coalition, an industry 
association that supports this bill. One of the coalition's 
members is Kennecott Copper, which operates one of the world's 
largest copper mines. That company would like to expand its 
mine with fewer air pollution controls. So that is one way this 
bill goes beyond farms.
    The bill also includes ``windblown dust'' in the definition 
of what constitutes nuisance dust. Ms. McCarthy, could all 
particulate air pollution be viewed as windblown dust and does 
the bill distinguish because particulate matter from a farm or 
from a factory?
    Ms. McCarthy. It could, and there is no such distinction in 
the bill that you have asked me to comment on.
    Mr. Waxman. So the dust is undefined in the bill and 
commonly applies to small particles, so all particulate air 
pollution might fall under this phrase?
    Ms. McCarthy. It might.
    Mr. Waxman. The bill further includes as nuisance dust 
particulate matter that is generated from ``activities 
typically conducted in rural areas.'' This is extremely broad 
and could capture a range of industrial activity that often 
occurs in less populated areas. Ms. McCarthy, what activities 
could be covered by this definition?
    Ms. McCarthy. The generation of power at a power plant, 
large industrial sources like steel plants, gravel operations, 
mining operations, driving diesel buses to school, diesel 
engines. A variety of the same kind of sources that you would 
find in rural areas can be found in urban areas as well.
    Mr. Waxman. The bill is so broadly written that it could 
prevent EPA from ensuring that school buses don't spew 
dangerous air pollution in rural communities across the 
country. I think that is not common sense, I think that is 
ridiculous.
    Ms. McCarthy, given these broad definitions, how could this 
bill affect EPA's ability to limit emissions of particle 
pollution from all sources, not just farms, and what are the 
public health implications?
    Ms. McCarthy. This bill, if passed as written, could have 
serious implications on the major tenets of the Clean Air Act. 
It could preclude us from regulating PM fines as well as 
coarse. It could preclude us from regulating NOx and SO2 
emissions from power plants, from mining operations, from large 
industries, from mobile sources. It could have serious 
unintended consequences.
    Mr. Waxman. If the Republicans want to reduce or eliminate 
existing controls on particulate pollution from industrial 
activities, they probably have the votes to do that, but if so, 
let us debate that on the merits. Let us not pretend that this 
bill is about stopping EPA from imposing new regulations on 
farms.
    I hear this all the time, and I have heard it all my 
career. I have got a simple bill, totally common sense. It only 
deals with a problem that is on people's minds. And then you 
look at the language and you find out that it is much broader 
and has a lot of consequences that we presume are unintended 
but they might even be intended. So I think we have to look at 
legislation as it is written, not as how people would say it is 
intended because their intentions are not part of the law that 
EPA enforces. Isn't that correct, Ms. McCarthy? Does EPA 
enforce intentions of the authors or the language of the bill?
    Ms. McCarthy. We have to enforce the language of the bill, 
Mr. Waxman.
    Mr. Waxman. Even if Congress intended something else?
    Ms. McCarthy. Often times, yes.
    Mr. Waxman. I yield back my time. Thank you, Mr. Chairman.
    Mr. Whitfield. At this time I will recognize Mr. Terry of 
Nebraska for 5 minutes.
    Mr. Terry. Thank you.
    Ms. McCarthy, while listening here and some of the 
discussion about whether or not we should even be having this 
discussion and EPA has already said they won't enforce the 
PM<INF>10</INF> on agriculture was the statement I think Lisa 
Jackson made when I asked her about that and after she 
answered, ``dust happens'' as the answer, I thought that was 
rather flippant and insulting to our farmers. But the reality 
is, the fear exists and I do think it is real, not only because 
there was a recommendation to regulate dust on the farm and the 
roads but there has been a history with this EPA. For example, 
in the State Nebraska, under a proposed rule for CSAPR, 
Nebraska was not even given reasonable notice or opportunity to 
revise its implementation plan to react to requirements of the 
2006 PM2.5 NAAQS, and it wasn't until August 2011 that Nebraska 
became aware that a level of emission control necessary to 
mitigate interstate transport.
    So the point is, those of us in Nebraska have already gone 
through a situation where the EPA said basically you weren't 
going to be covered and then to our surprise we were covered, 
which resulted in a lawsuit. So there is a history with the EPA 
of making promises and then breaking them.
    Now, in regard to the specific of nuisance dust and 
PM<INF>10</INF>, the chairperson, Chairman Whitfield, hit on 
this and it has always been my saying that we are only one 
lawsuit away from you being forced to regulate dust 
particulates from farming activities or the roads, and in fact, 
there is a history with the EPA of their partners, Sierra Club 
and Natural Resources Defense Council, filing lawsuits and then 
you entering into a settlement agreement.
    So with that fear that I have that that is the ultimate 
plan here is to have one of your partners file suit, therefore 
it is not Lisa Jackson's or this Administrator's decision but 
the court's decision. I used the fictional because that is what 
happens. You enter into a settlement agreement. So my question 
to you is, to your knowledge, has Lisa Jackson, you or anyone 
with the EPA had any discussions with Sierra Club, the NRDC or 
any other environmental group about filing lawsuits on nuisance 
dust from farming activities and dirt roads?
    Ms. McCarthy. Absolutely not.
    Mr. Terry. No discussions?
    Ms. McCarthy. Absolutely not.
    Mr. Terry. No emails?
    Ms. McCarthy. Absolutely not.
    Mr. Terry. OK.
    Ms. McCarthy. Mr. Terry, we can talk about the cross-state 
rule another time. I would really like that opportunity. But 
what I will say is that this whole issue arose because people 
were concerning about the Administrator going out and making a 
change in a standard that had never been brought to her. The 
rule has not been proposed. She has indicated what she intends 
to propose. It would go through a public process and then it 
would be finalized, and without doubt, it will be challenged. 
There is ample opportunity for this body to see whether the 
Administrator is actually going to live up to the letter that 
she wrote and whether or not the science and what the final 
rule looks like.
    Mr. Terry. Listening to the discussions that have occurred 
so far, you would agree that basic combining harvest or plant 
would create dust that would then in that instance violate the 
PM<INF>10</INF>?
    Ms. McCarthy. Actually, that is not how it works. We 
actually rely on monitoring technologies, not modeling from 
individual sources, to establish nonattainment areas, and we 
don't have farm dust standards.
    Mr. Terry. But we already have an example in Virginia where 
the monitoring said that at that particular time of the truck 
driving over the road violated the standard, and so the reality 
here is that we are only one lawsuit away from you being forced 
to enforce the rule on farming activities, and my time is up.
    Mr. Whitfield. Thank you. At this time I will recognize the 
gentleman from Massachusetts, Mr. Markey, for 5 minutes.
    Mr. Markey. I thank you, Mr. Chairman, very much.
    In 1999, the public was outraged to learn that Congressman 
Tony Schnell had introduced bill 602P to allow the United 
States Postal Service to impose a 5-cent tax on every single 
email that was sent. Email action alerts were sent out with 
alarming instructions to read this if you intend to stay online 
and continue using email. Congressional offices were flooded by 
frustrated constituents. The issue even got raised at campaign 
debates where candidates predictably came out in opposition to 
this misguided scheme. There was just one problem. None of it 
was real. There was no bill 602P. There wasn't even a 
Congressman Schnell in the House of Representatives. The whole 
thing was an Internet hoax, and everyone should have just moved 
on.
    But Republicans forged ahead. They introduced the Internet 
Access Charge Prohibition Act of 1999, apparently because only 
by passing actual legislation to prohibit the goals of the 
imaginary legislation authored by a fictitious Congressman 
could we prevent these horrible surcharges from being imposed 
in the real world, but it didn't just do that, that piece of 
legislation. Then it went on further to actually include 
provisions which would have hurt poor and rural Americans to 
get phone service.
    So I am reminded of that legislation as we consider this 
bill to prevent the regulation of farm dust. Just like the 
email tax hoax, there is no plan to regulate farm dust any more 
than there is to regulate fairy dust. There is no attempt to 
accomplish that goal. Let me say that again: EPA has made it 
very clear that the so-called plan to regulate farm dust is a 
myth, but that hasn't stopped the Republicans from moving 
forward with this legislation, and just like the email tax 
bill, this bill goes well beyond its stated intent because it 
also blocks EPA from settings standards for the dirty soot that 
gets spewed out of coal-fired power plants, incinerators, 
refineries and chemical plants. That is the real agenda, not to 
stop something that isn't going to happen but to then switch in 
the middle of their legislation to move over to something that 
really would protect the public from public health hazards. 
This bill should be relegated to the dust bin of similar urban 
legends along with Congressman Schnell's imaginary email tax 
bill.
    Ms. McCarthy, can you tell me whether EPA has any new plan 
to specifically regulate farm dust?
    Ms. McCarthy. We do not.
    Mr. Markey. Isn't it true that this legislation goes beyond 
a simple prohibition on farm dust regulations by also 
preventing EPA from regulating any dust that is generated by 
activities that are typically conducted in rural areas and any 
dust that can be blown in the wind?
    Ms. McCarthy. That is true, Congressman.
    Mr. Markey. Even if that dust is actually coming from coal-
fired power plants or other industrial sources?
    Ms. McCarthy. There is a grave concern that that is part of 
what the bill might do.
    Mr. Markey. And finally, since I am sure that many little 
girls all over America care about this deeply, can you commit 
to me that EPA will never try to regulate fairy dust or pixie 
dust? Because if not, we may just want to amend the legislation 
in order to protect us against that threat which could be posed 
by the EPA or other regulatory agencies seeking to move into 
other fictional areas such as the legislation which is being 
considered here by this committee.
    Ms. McCarthy. After we look at the complete scientific 
review, yes.
    Mr. Markey. You will make sure that you do not under any 
circumstances? OK. Thank you.
    So I thank the chair very much and I yield back the balance 
of my time.
    Mr. Whitfield. At this time I recognize the gentleman from 
Texas, Dr. Burgess, for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman, and I thank the 
gentlelady for being here with us today and answering our 
questions. You brought a lot of material with you there at your 
left hand. What is that compendium of documents?
    Ms. McCarthy. This is the Integrated Science Assessment for 
Particulate Matter that has recently been prepared that would 
underpin the decision of the Administrator in terms of moving 
forward with updating both the PM<INF>10</INF> and the PM2.5 
standards.
    Mr. Burgess. And there are health studies included in that?
    Ms. McCarthy. This is actually a peer-reviewed summary of 
peer-reviewed scientific literature that would have an impact 
and concern relative to particulate matter.
    Mr. Burgess. So are there available then health studies 
that have found that rural dust is a health concern?
    Ms. McCarthy. There are many, yes.
    Mr. Burgess. And will you leave those behind with us?
    Ms. McCarthy. Absolutely.
    Mr. Burgess. Has the EPA conducted a quantitative health 
risk assessment of coarse particulate matter?
    Ms. McCarthy. The EPA has not used that tool on coarse 
particulate matter, no.
    Mr. Burgess. Is the reason for that because you don't have 
enough scientific evidence?
    Ms. McCarthy. The reason for that is because coarse 
particulate matter, we don't have the kind of monitoring data 
that we have available relative to other pollution so it 
doesn't seem like it would be an appropriate tool to use, but 
we certainly have enough studies that look at coarse particles 
so that a linkage has been made in terms of the emissions of 
those particles and health impacts that would result.
    Mr. Burgess. Let me ask you this. There was another 
subcommittee of Energy and Commerce that asked Administrator to 
share with that subcommittee any studies that show a causal or 
associative relationship between fine particulate matter and 
deaths at levels below what the EPA calls the lowest measured 
level. Now, apparently that request has yet to be honored so 
can I ask you today that you will endeavor to help us receive 
those materials that Administrator Jackson promised another 
subcommittee and this full committee?
    Ms. McCarthy. I will assure you that we will provide all of 
the health studies that are the basis of these decisions.
    Mr. Burgess. We will get you the details on that, but I 
think it is important, and I appreciate your willingness to 
help us gather the information.
    Let me just ask you a question that is a little bit off 
topic for a moment. Now, it seems like Administrator Jackson 
and the EPA are very concerned about asthma and asthma deaths. 
Is that a fair statement?
    Ms. McCarthy. Yes.
    Mr. Burgess. It seems like almost every hearing we have on 
almost anything, asthma deaths are brought up as one of the 
metrics.
    Ms. McCarthy. Well, air pollution generally the health 
impacts of most concern are usually respiratory or 
cardiovascular, yes.
    Mr. Burgess. Well, one of the things that is just really 
perplexing to me, I am an asthma patient. I am on a long-term 
medication, and I also use a rescue inhaler. Now, occasionally, 
like anybody else, I will forget my medication. I travel a lot. 
And it is reassuring to know that I can go into any pharmacy in 
the country and buy Primatene Mist over the counter. I don't 
have to go to the emergency room. I don't have to get a 
doctor's prescription for it. I can just simply get the 
medication when needed and self-administer and avert a problem. 
But Primatene Mist is not going to be available after January 
1st, is it?
    Ms. McCarthy. That is correct. If the FDA ban continues, 
yes, that is true.
    Mr. Burgess. Well, it is not just the FDA. I mean, EPA is 
playing a role in this as well because of the propellant, the 
vehicle, the CFC that actually propels the medication.
    Ms. McCarthy. Certainly we have been working closely with 
FDA for many years on this issue, yes.
    Mr. Burgess. But the fact remains that because of the EPA, 
this medication is no longer going to be available to me after 
January 1st.
    Ms. McCarthy. Well, the fact remains, I think that just to 
clarify, this is an issue where there are CFCs that actually 
are used in these inhalers, both in the ones you get by 
prescription and there is one remaining that is over the 
counter that has an impact on ozone layer, and as part of our 
obligation with the Montreal Protocol----
    Mr. Burgess. I would submit that the volume of CFC that is 
released into the atmosphere from the contingent of asthma 
patients that uses an occasional rescue inhaler that they buy 
at 2:00 in the morning is vanishingly small and not responsible 
for the hole in the ozone layer. And I will tell you, my own 
comfort at 2:00 in the morning takes vastly more precedent than 
any potential theoretical enlargement of the hole in the ozone 
layer. I just have to say, here is an example of, we come in 
here and we talk about in lofty terms that we want to prevent 
asthma deaths, and yet at the same time the EPA and the FDA in 
concert are acting to keep the medication out of the hands of 
the patients who so desperately need them. It is irony to the 
nth degree, and I thank the chairman for allowing me the 
indulgence.
    Ms. McCarthy. I am happy to have the discussion and bring 
back the dialog relative to FDA's determination as to whether 
or not this inhaler is an essential use.
    Mr. Burgess. Look, you are not going to get me defending 
the FDA. I promise you that. But both Federal agencies are 
playing a role in this, and the fact remains, January 1st, 
patients all over the country are not going to be able to get 
access to their medication. If we are concerned about asthma, 
we would fix that.
    Mr. Whitfield. Well, thank you, Dr. Burgess, and appreciate 
your raising that issue of sometimes unintended consequences.
    At this time I recognize the gentleman from Louisiana, Mr. 
Scalise, for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate you 
having this hearing, and I want to thank my two colleagues that 
were presenting the legislation that we are discussing today. I 
strongly support the legislation and what we are trying to do 
is I think bring some certainty to an area where is tremendous 
uncertainty, and unfortunately, the uncertainty has cost jobs. 
It has cost a lot of businesses, what we are seeing over and 
over from businesses in my district and other districts. When 
you talk to colleagues all around the country, you hear the 
same thing over and over. It is not only the uncertainty but 
the actual threats from real regulations or potential 
regulations coming down from agencies like the EPA that are 
impeding their ability to create jobs, that are impeding their 
ability to invest in their business, and I am looking forward 
to the next panel because we are going to hear from some people 
who are actually on the ground dealing with this, and while 
unfortunately some of my colleagues on the other side want to 
make fun of this and, you know, want to tell jokes about fairy 
dust, this is about real American jobs that are being lost 
because of these regulations, you know, and yet some people 
just want to make fun of that. They think it is funny that 
people in middle America, people in rural America are looking 
at these regulations that are coming down and looking at the 
threats.
    I want to read you to some--this is off of EPA's Web site. 
You know, you are talking about some potential diseases coming, 
respiratory irritation, lung function reduction, asthma, 
inflamed damage to lungs, aggravated lung disease, permanent 
lung damage, and I know you rattled off some other things in 
your opening testimony. I am not talking about dust particles. 
I am talking about the ozone ruling. These were all the same 
things that EPA said were threats that you need to have this 
ozone ruling, and even President Obama said you are out of 
control. He pulled it back. And so when you come before our 
committee and no matter what bill it is, if it is Cement MACT 
or Boiler MACT or dust or ozone, you rattle off the same things 
over and over about, you know, if we don't allow you to go 
forward with this or we bring a bill to prevent some radical 
regulation from EPA, it is going to send more people to the 
hospital and kids are going to get asthma and, you know. Lung 
disease, you know, you have been beating that drum for 
everything, and even the President said that you are out of 
line. And so I hope, you know, when you all come and oppose 
these commonsense bills to just put certainty in place, to 
prevent some regulations from coming in that aren't there now 
that would put people out of business, when you keep saying the 
same things over and over about threats to health, I mean, are 
you saying that the President doesn't support public health 
because the President said you went too far.
    Ms. McCarthy. I guess I am a little confused because I 
think this bill was initiated because the Administrator 
actually made it clear that she doesn't intend to propose a 
change in the PM<INF>10</INF> standard at this time.
    Mr. Scalise. But then you should be OK with the bill 
because the bill just says that you won't go forward with it. 
You are saying you are not going to do it. The thing is, you 
have said you are not going to do it on other areas, not you 
personally but EPA has done this in the past, and the chairman 
brought this up. The chairman of the committee talked about 
these consent decrees, these consent agreements that some of 
these outside groups will come and sue the EPA, and we have 
seen it with energy production, we have seen it with other 
things, and then you all go into an agreement with them. It is 
not a law, it is not even a rule, and yet you can go into these 
consent agreements and all of a sudden there is a new standard 
on the books that nobody agreed to. It wasn't Members of 
Congress that agreed to it, the elected representatives of the 
people, it was some backroom deal cut either by a judge or, 
even worse, some outside group who is a specialist interest 
that got together with you all and you all came up with some 
kind of new agreement that everybody has got to comply with, 
and it puts people out of business. It kills jobs in this 
country. And we are just trying to say we are going to issue a 
preemptive strike before you all are forced in that position. 
You might not even want to do it, but if they bring you to 
court and all of a sudden some judge gives some ruling, 
everybody in America, rural Americans, all these farmers have 
to comply with this stuff. And I am trying to say, before you 
cost any more jobs, because you have already cost jobs, whether 
you agree with it or not. We can bring in business owner after 
business owner and job creators that can tell you thousands of 
jobs in each industry that have been lost because of EPA 
regulations. We are just trying to say enough is enough before 
this new one comes out. Let us stop it. What is so wrong about 
that when you look at all the outside groups who--you are 
looking at over 100 farmer groups, U.S. Chamber, National 
Association of Manufacturers, all these farm groups. I mean, I 
saw a story from the Illinois Farm Bureau. I mean, do you think 
they are just making up stuff? Do you think they are having 
imaginations about fairy dust, as it was suggested? I mean, 
these are people that on the ground trying to just create jobs 
and they are scared to death of what is coming down the pike 
from EPA.
    Ms. McCarthy. Congressman, the language in this bill goes 
far beyond the interest that you have expressed in making sure 
that the Administrator's decision to not propose to change 
the----
    Mr. Scalise. All right. So if you don't like the language, 
then what you are saying is, you are OK with some kind of 
prohibition, you don't like this----
    Ms. McCarthy. All I am suggesting is that this law is not 
necessary.
    Mr. Scalise. I think a lot of hard-working farmers out 
there would----
    Ms. McCarthy. And the only other----
    Mr. Scalise [continuing]. Disagree, but I yield back. I am 
out of time.
    Mr. Whitfield. The gentleman's time is expired.
    I recognize the gentleman from Colorado, Mr. Gardner, for 5 
minutes.
    Mr. Gardner. Thank you, Mr. Chairman, and thank you, Ms. 
McCarthy for your time here today. I truly appreciate it.
    We have talked a lot today, EPA currently has a 
PM<INF>10</INF> standard, dust standard. Is that correct?
    Ms. McCarthy. Yes.
    Mr. Gardner. And that basically means 150 microns per cubic 
meter of air at the 99th percentile. Is that what it means?
    Ms. McCarthy. That is correct.
    Mr. Gardner. Which means you get about 3 days over the 
standard average over a 3-year period and you are still in 
compliance. Is that correct?
    Ms. McCarthy. Yes.
    Mr. Gardner. OK. Does that standard apply across the 
country?
    Ms. McCarthy. Yes.
    Mr. Gardner. Are there areas of the country that are in 
nonattainment for PM<INF>10</INF>?
    Ms. McCarthy. There are.
    Mr. Gardner. And where are these areas?
    Ms. McCarthy. Well, I can certainly point them out to you. 
For the most part, they are in the western part of the United 
States. I would certainly be happy to share this with you. 
These----
    Mr. Gardner. Southern California, Arizona?
    Ms. McCarthy [continuing]. Are the 45 areas. That is right.
    Mr. Gardner. Thank you. Do any of these nonattainment areas 
have any agriculture production?
    Ms. McCarthy. Yes, many of them do. I think there is--it is 
primarily around urban areas where we monitor we most closely.
    Mr. Gardner. What requirements are placed on those 
producers if they farm in a nonattainment area?
    Ms. McCarthy. It all depends. They may not be seen as 
contributing significantly to the nonattainment, in which case 
there is no obligation. In areas where they have been 
identified, which represent a couple of counties that I know 
about, there are a number of best management practices that 
have been developed with USDA and the farming community. They 
tend to choose what is most appropriate off that list and 
implement those measures.
    Mr. Gardner. Well, I am glad you mentioned that, because in 
fact, since there is nobody on this committee from Arizona, I 
do have where some of the nonattainment areas are. I would like 
to ask that these documents be submitted to the record, 
Arizona's mandatory BMPs, best management practices, for rural 
crop agriculture and mandatory BMPs for livestock producers.
    Mr. Whitfield. Without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.034
    
    [GRAPHIC] [TIFF OMITTED] T6176.035
    
    [GRAPHIC] [TIFF OMITTED] T6176.036
    
    [GRAPHIC] [TIFF OMITTED] T6176.037
    
    [GRAPHIC] [TIFF OMITTED] T6176.038
    
    [GRAPHIC] [TIFF OMITTED] T6176.039
    
    [GRAPHIC] [TIFF OMITTED] T6176.040
    
    [GRAPHIC] [TIFF OMITTED] T6176.041
    
    [GRAPHIC] [TIFF OMITTED] T6176.042
    
    [GRAPHIC] [TIFF OMITTED] T6176.043
    
    [GRAPHIC] [TIFF OMITTED] T6176.044
    
    [GRAPHIC] [TIFF OMITTED] T6176.045
    
    [GRAPHIC] [TIFF OMITTED] T6176.046
    
    [GRAPHIC] [TIFF OMITTED] T6176.047
    
    [GRAPHIC] [TIFF OMITTED] T6176.048
    
    [GRAPHIC] [TIFF OMITTED] T6176.049
    
    [GRAPHIC] [TIFF OMITTED] T6176.050
    
    [GRAPHIC] [TIFF OMITTED] T6176.051
    
    [GRAPHIC] [TIFF OMITTED] T6176.052
    
    [GRAPHIC] [TIFF OMITTED] T6176.053
    
    [GRAPHIC] [TIFF OMITTED] T6176.054
    
    [GRAPHIC] [TIFF OMITTED] T6176.055
    
    [GRAPHIC] [TIFF OMITTED] T6176.056
    
    [GRAPHIC] [TIFF OMITTED] T6176.057
    
    [GRAPHIC] [TIFF OMITTED] T6176.058
    
    [GRAPHIC] [TIFF OMITTED] T6176.059
    
    [GRAPHIC] [TIFF OMITTED] T6176.060
    
    [GRAPHIC] [TIFF OMITTED] T6176.061
    
    [GRAPHIC] [TIFF OMITTED] T6176.062
    
    [GRAPHIC] [TIFF OMITTED] T6176.063
    
    [GRAPHIC] [TIFF OMITTED] T6176.064
    
    [GRAPHIC] [TIFF OMITTED] T6176.065
    
    [GRAPHIC] [TIFF OMITTED] T6176.066
    
    [GRAPHIC] [TIFF OMITTED] T6176.067
    
    [GRAPHIC] [TIFF OMITTED] T6176.068
    
    [GRAPHIC] [TIFF OMITTED] T6176.069
    
    [GRAPHIC] [TIFF OMITTED] T6176.070
    
    [GRAPHIC] [TIFF OMITTED] T6176.071
    
    [GRAPHIC] [TIFF OMITTED] T6176.072
    
    [GRAPHIC] [TIFF OMITTED] T6176.073
    
    [GRAPHIC] [TIFF OMITTED] T6176.074
    
    [GRAPHIC] [TIFF OMITTED] T6176.075
    
    [GRAPHIC] [TIFF OMITTED] T6176.076
    
    [GRAPHIC] [TIFF OMITTED] T6176.077
    
    [GRAPHIC] [TIFF OMITTED] T6176.078
    
    [GRAPHIC] [TIFF OMITTED] T6176.079
    
    [GRAPHIC] [TIFF OMITTED] T6176.080
    
    [GRAPHIC] [TIFF OMITTED] T6176.081
    
    [GRAPHIC] [TIFF OMITTED] T6176.082
    
    [GRAPHIC] [TIFF OMITTED] T6176.083
    
    [GRAPHIC] [TIFF OMITTED] T6176.084
    
    [GRAPHIC] [TIFF OMITTED] T6176.085
    
    [GRAPHIC] [TIFF OMITTED] T6176.086
    
    [GRAPHIC] [TIFF OMITTED] T6176.087
    
    [GRAPHIC] [TIFF OMITTED] T6176.088
    
    [GRAPHIC] [TIFF OMITTED] T6176.089
    
    [GRAPHIC] [TIFF OMITTED] T6176.090
    
    [GRAPHIC] [TIFF OMITTED] T6176.091
    
    [GRAPHIC] [TIFF OMITTED] T6176.092
    
    [GRAPHIC] [TIFF OMITTED] T6176.093
    
    [GRAPHIC] [TIFF OMITTED] T6176.094
    
    [GRAPHIC] [TIFF OMITTED] T6176.095
    
    [GRAPHIC] [TIFF OMITTED] T6176.096
    
    [GRAPHIC] [TIFF OMITTED] T6176.097
    
    [GRAPHIC] [TIFF OMITTED] T6176.098
    
    [GRAPHIC] [TIFF OMITTED] T6176.099
    
    Mr. Whitfield. Thank you.
    Mr. Gardner. And it seems that based on these documents, 
the results of the PM<INF>10</INF> standard that are set by the 
EPA that you currently regulate farm dust. That is what these 
documents are here for because of the regulations on dust that 
occurs in agriculture, farm dust. Now, I understand, I live in 
Colorado, it is very dry. I would love to ban dust. It seems 
like that is all we do is dust. We have worn the coffee table 
out with it. But I was just curious, your statement, and I have 
heard others say it is a myth that EPA is trying to regulate 
dust but you already do. Is that correct?
    Ms. McCarthy. Actually, we establish health-based 
standards. It is up to the States and the local communities to 
determine what is most appropriate to regulate.
    Mr. Gardner. But that is on dust, right? You do regulate 
dust?
    Ms. McCarthy. We establish National Ambient Air Quality 
Standards----
    Mr. Gardner. The answer is yes, you regulate dust? I mean, 
that is why you have these best management practices here that 
are about farm dust.
    Ms. McCarthy. I believe that that is a regulation in 
Arizona and it being----
    Mr. Gardner. So Arizona just has this regulation, not 
because of the EPA?
    Ms. McCarthy. No, it is very directly a linkage because of 
the health consequences associated with coarse particles, some 
of which may be from farms if they determine that there is 
significant----
    Mr. Gardner. Which is farm dust and so you are causing them 
to regulate farm dust?
    Ms. McCarthy. We could probably continue this for a while 
but I do not--we do not directly regulate farm dust. We have no 
farm dust regulations. What we have is National Ambient Air 
Quality Standards that regulate coarse and fine particles, 
which many businesses, industries as well as some 
agricultural----
    Mr. Gardner. So let me rephrase my question. Do you 
regulate dust from farms? Maybe that is a different question. 
You know, farm dust, maybe there is no specific category for 
defining farm dust but do you regulate dust from farms?
    Ms. McCarthy. I really am not trying to be evasive. Let me 
tell you how----
    Mr. Gardner. But, see, the problem here is that what my 
district sees. This district is the 11th largest ag-producing 
district in this Congress out of 435. It is not fairy dust to 
them. This is a very real issue.
    Ms. McCarthy. I am not suggesting this is not a serious 
issue.
    Mr. Gardner. EPA also suggested that they weren't going to 
regulate milk from dairies but they had to actually put 
something in there--milk spills at dairies but they had to put 
something in the Federal regulations saying they weren't going 
to regulate milk spills. You can see the problem that we face 
when it comes to the EPA and how our farmers and ranchers are 
trying to deal with it. We have best management practices from 
States that are dealing with the regulation of dust from farms. 
Now, whether that is farm dust or not, maybe that is a point of 
distinction.
    Ms. McCarthy. In areas where farm dust contributes to 
nonattainment and imposes health concerns in those communities, 
there is certainly both a right and an obligation to take a 
look at those issues and to see if there are cost-effective 
practices that can be put in place that would reduce the health 
consequences associated with those emissions. But so I don't 
see anything wrong with that. In fact, I see that as a good 
practice to continue.
    Mr. Gardner. So do you think there should be regulations on 
dust from farms?
    Ms. McCarthy. I believe that there should be regulations on 
coarse particles, and coarse particles, no matter where they 
are emitted from, can be reduced in areas where they are 
causing a health burden that they should be reduced if they can 
be done cost-effectively----
    Mr. Gardner. So the answer is yes----
    Ms. McCarthy [continuing]. And practically.
    Mr. Gardner [continuing]. Dust from farms ought to be 
regulated?
    Ms. McCarthy. I did not say that, no.
    Mr. Whitfield. The gentleman's time is up.
    At this time I recognize Mr. Pompeo of Kansas for 5 
minutes.
    Mr. Pompeo. Thank you, Mr. Chairman. Thank you, Ms. 
McCarthy, for being here today.
    I want to spend time on the statute but first I do want to 
clarify. Mr. Markey didn't take this very seriously. He talked 
about fairy dust. He talked about myths and fake Congressmen 
and fictitious things. Do you agree with him? Is this a myth? 
Are the 100 folks who signed that letter in support and 
everybody who talks to me back in Kansas, are they irrational, 
ignorant or just sadly mislead?
    Ms. McCarthy. I think there are many misunderstandings 
here, and there are complexities here that people don't 
understand. I certainly understand----
    Mr. Pompeo. So they are ignorant?
    Ms. McCarthy [continuing]. That the agricultural community 
is concerned. I do recognize the importance of the agricultural 
community, and we certainly don't want EPA to look like it is 
adding burden on the farming community when in essence the 
Administrator has clearly said she has no intention of 
proposing a change in this PM standard. All of that is very 
real.
    Mr. Pompeo. I appreciate that. So you disagree with Mr. 
Markey? You take this seriously?
    Ms. McCarthy. I take my job very seriously.
    Mr. Pompeo. I appreciate that.
    I want to talk about what the proposed legislation does and 
what it does not do. Mr. Waxman talked about this eviscerating, 
gutting the Clean Air Act. I think that is the 57th time I have 
heard that in 10 months. Everything we do guts the Clean Air 
Act. He talked about taking away, eliminating regulations. This 
doesn't eliminate any regulation. This just gives the States 
the ability to do it, and if they don't do it adequately, you 
can come in and clean up their mess. Isn't that right? As I 
read this language, isn't that exactly what it says? This 
doesn't deny anybody's ability to regulate this coarse 
particulate matter. It just says we are going to give that to 
the States, and if you don't get it right, we will come in and 
make an adverse health finding, we will do a cost-benefit 
analysis and Ms. McCarthy will come in and clean up the mess, 
right?
    Ms. McCarthy. I think that if what you are saying is right, 
what you are saying is rolling back national standards, health 
standards that are necessary for public health protection. You 
are talking about giving those to local communities or States 
that certainly don't have the scientific or the resource 
wherewithal to be able to make this happen. So I would say in 
essence you are actually gutting the Clean Air Act.
    Mr. Pompeo. Wow. So you think the States are completely 
incapable of making sure they can take care of the health of 
Kansas. My Governor, Governor Brownback and his Kansas 
Department of Health and Environment, are incapable of 
protecting the health of their citizens?
    Ms. McCarthy. Actually, I would----
    Mr. Pompeo. They don't have the resources. You said they 
don't have the resources or the scientific knowledge out in 
flyover country?
    Ms. McCarthy. I would say that the way in which nuisance 
dust is defined here in what you would need to do to regulate 
it is potentially beyond the wherewithal of EPA and our 
scientists at this point in time, and I certainly wouldn't want 
that burden imposed on States and local communities.
    Mr. Pompeo. Last point. So I think it was Mr. Waxman and 
you had a little colloquy about all the horrors that could 
follow. We could have school buses killing children, large open 
pit mining exemptions, and you said that this language might 
prevent the EPA from regulating those. This really isn't a 
question. This is a statement and my observation. You have 
never let statutory language get in the way of your efforts to 
regulate things. We have made things clear. We make them 
explicit and you run through stop signs. And so here we have 
got language which doesn't talk about school buses and yet you 
and Mr. Waxman say that this is going to allow school buses to 
do great harm. Do you really believe that this language would 
preclude you from doing those kinds of regulation for power 
sources and for school buses? My question is, do you believe 
that this language would preclude you?
    Ms. McCarthy. I believe that it very well could.
    Mr. Pompeo. It very well could?
    Ms. McCarthy. Yes.
    Mr. Pompeo. So you would sit with your team and you would 
say I don't think we can do that?
    Ms. McCarthy. Well, one of the issues is, I am trying to 
understand what it was intended to do. Was it intended to do 
that?
    Mr. Pompeo. Well, you said before, it doesn't matter, 
right? You said what does the language do. I think it is very 
clear what the language does. This language grants the rights 
to the States to regulate this and keep their folks safe, and 
then if there are health adverse health effects and if a cost-
benefit analysis is completed, you all can go fix it. So I 
think it is very clear. We are trying to prevent EPA from doing 
not what an imaginary Congressman said they would do and not 
what some silly email chain that was fraudulent centered on but 
what your EPA staff said they were considering.
    Ms. McCarthy. So this bill is actually intended not just to 
prevent the Administrator from ever being able to advance or 
enhance regulation of farm dust or coarse particles, it is 
actually intended to roll back 24 years of history in 
regulating coarse particles that started with the Reagan 
administration, that continued to the Bush administration, that 
protects public health today. That is the intent of this bill.
    Mr. Pompeo. My time is up. It is intended to do precisely 
what it says it will do. It is intended to stop the EPA from 
regulating farm dust, and I yield back the balance of my time.
    Mr. Whitfield. At this time I recognize the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    All right. Let us get back into this and we will pick up 
right where we left off with Mr. Pompeo, because I am trying to 
figure it out, and I don't think that the intent of this bill 
is to do any of the things that you think it is intended or 
that you were trying to imply that Mr. Pompeo was saying it is 
going to do. I think it is regulating farm dust. That being 
said, would you all support this bill if you changed on line 
15, page 3--do you have the bill in front of you, ma'am?
    Ms. McCarthy. I do have it in front of me somewhere. Yes, I 
have it.
    Mr. Griffith. If you changed on line 15--and I am not 
speaking for the patrons, I am just asking. On line 15, if you 
change the ``or'' to an ``and'', wouldn't that resolve all of 
your semantic problems or all of your language problems?
    Ms. McCarthy. I am really not prepared at this time to 
negotiate the bill. What I will say is that I think that in----
    Mr. Griffith. Just look at the plain language of the bill. 
If you put an ``and'' there, there is no way anybody on earth 
could interpret that that would allow mining. Isn't that 
correct?
    Ms. McCarthy. I do not know the answer. I can certainly go 
back and take a look at it.
    Mr. Griffith. All right. Let us talk about this----
    Ms. McCarthy. Could I just point out, one of the confusing 
things in the definition, it is----
    Mr. Griffith. I will take back my time, ma'am.
    Ms. McCarthy. OK. I am sorry.
    Mr. Griffith. You know, I think most of us over here were 
offended by the fairy dust comment, and I was concerned about 
it enough that I got Representative Hurt to bring me his 
language, and apparently in his district, there was a farmer 
who has already been warned by a State regulator. Now, you 
indicated you weren't aware of State regulations in Virginia, 
and I am happy to share those with you, if you would like, and 
these are the regs, not the underlying law but the regs in 
Virginia which talk about fugitive dust, and I guess what I 
want to know is, is that based on your earlier testimony, my 
impression is, is that you have all indicated to the States 
that this is the direction that they should go in. Is that not 
correct? You have indicated to the States that they should be 
regulating fugitive dust from agricultural sites? Is that not 
correct?
    Ms. McCarthy. Not that I am aware of. In fact, even in the 
coarse particulate standard, our monitoring that we base our 
nonattainment decisions on is focused on urban areas. It is 
both focused on where there is the highest levels of pollution 
as well as where there is most population exposed. So we do not 
focus on rural areas as we implement that standard. So----
    Mr. Griffith. But as you have indicated, as time goes by, 
if there a coarse particulate matter issue, you all are going 
to go in and regulate that. And I guess one of my concerns is, 
is that in regard to another set of regulations, not this one, 
back when I served in the Virginia legislature on the Virginia 
Joint Commission on Administrative Rules and Regulations, we 
had an issue that came up and it looked like it was Virginia 
enacting something that we just thought was foolish, and when 
we pushed on it, they said well, we have been told by the EPA 
we have to do this. This was stormwater management. And we said 
well, bring them in, and the EPA came in and basically said 
that, you know, Virginia didn't have any rights even outside of 
the Chesapeake Bay area and that they were going to force us to 
do it one way or another. And so I want to know, are we dealing 
with the same kind of situation with dust? Are you all going to 
tell the States that they have to do this or you're going to 
come in and tell them how to do it?
    Ms. McCarthy. This is a National Ambient Air Quality 
Standard. That means that when States are implementing the 
program, they make their own judgments about what is cost-
effective in terms of an implementation strategy for their 
States, and to the extent that it is lawful, EPA respects that 
judgment.
    Mr. Griffith. Since this bill at this time only has a 1-
year time limit or time period in it and you all have indicated 
that you are not planning to go forward with any new 
regulations on agricultural dust, why the opposition? Why don't 
you join in and support the bill?
    Ms. McCarthy. Actually, it has two sections. The first one 
is the one that talks about a 1-year limit, but it is really 
not limited to coarse particles. It really spills into our 
ability to regulate fine particles. And section 3 really 
attempts to exempt nuisance dust from regulation altogether, 
and because of how broadly that is defined, it can certainly 
leak into all areas of the Clean Air Act and prevent us from 
being able to maintain the kind of health standards we have had 
for decades and the protections that the American people 
expect.
    Mr. Griffith. But you do understand why people, as Mr. 
Gardner pointed out and others, why people are a little gun-shy 
when it comes to the EPA because we have seen things that don't 
make sense and we had had, in fairness, the States have been 
run roughshod at times by the EPA, and so when we hear some of 
these things, we don't always necessarily feel comfortable with 
it and we may at some point reach a level of trust but we are 
always going to have to verify.
    Thank you. I yield back my time.
    Mr. Whitfield. At this time the chair recognizes the 
gentlelady Ms. McMorris Rodgers for 5 minutes from Washington 
State.
    Mrs. McMorris Rodgers. Thank you, Mr. Chairman. I 
appreciate the time and I appreciate Ms. McCarthy for being 
here. You know, I too am struggling with the long list of 
regulations that have been proposed by the EPA administration 
this year, and at a time when unemployment in this country is 
at a record high, we continue to face one regulation after 
another that is making it, if not difficult, impossible for 
people to comply. I had someone in my office just the other day 
who said Cathy, the only way we can comply with the long list 
of regulations coming out of EPA is to simply not operate, and 
that is the fear that our farmers and ranchers face right now, 
and it seems that the administration is moving forward without 
the scientific, proven health benefits of many of these 
regulations.
    Now, 5 years ago, EPA concluded that the current PMT 
standard was appropriate, and yet today in many regions, they 
are still striving to comply with that standard. And that is 
why it makes us a little perplexed as to why earlier in the 
year EPA was recommending a stricter standard, and so in 
eastern Washington, whether we are working in the fields or 
herding our cattle or driving down a dirt road, dust is going 
to be kicked up, and that farm dust is a byproduct of American 
labor, not an air pollutant. So I understand that the 
Administrator has stated that the current standard, which has 
been in effect since 1987, will be continued. However, I too 
believe that farmers and ranchers in eastern Washington need 
more certainty. So I wanted to ask you, what made EPA go from 
earlier in the year proposing to exempt agriculture and mining 
to finalizing a standard that does not exempt them?
    Ms. McCarthy. Actually, that was an action that the Bush 
administration proposed in 2005 when it was doing its NAAQS 
review of the PM standard. They did propose to exempt 
agriculture from regulation. On the basis of all the comments 
that the Bush administration heard, they believed that the 
science was strongly indicating that it needed to be included 
within the definition of coarse particles and they didn't 
exempt it. That was not this administration, that was the Bush 
administration. And EPA has yet to propose anything. And if and 
when we do, the Administrator has made it clear what she 
intends to propose. When that is finalized if that is 
challenged and it goes to court, if we lose that challenge we 
re-look at the NAAQS, but you are in no immediate danger of 
actually happening.
    Mrs. McMorris Rodgers. But earlier in the year, you were 
proposing different standards, so what made you change----
    Ms. McCarthy. We actually had never proposed anything. What 
we were proposing on PM<INF>10</INF> was to wait for the 
Integrated Science Assessment. The Clean Air Science Advisory 
Committee did propose that the Administrator consider changing 
both the standard and form, which really wouldn't have made the 
standard more stringent but it would have changed levels of 
protection in the country, and when the staff looked at that, 
they believed that the data wasn't certain enough to warrant a 
recommendation solely to revise so the staff actually proposed 
two recommendations, one to keep it and one to revise it. When 
the Administrator looked at that, as she indicated in her 
letter, her assessment was that the science wasn't certain 
enough to warrant a change in the form and standard and that 
she was going to propose retaining that standard. That is how 
it has worked out. And there has been a lot of 
misunderstanding. So I apologize, but we did not--we have not 
put out a proposal in this administration relative to 
PM<INF>10</INF> or 2.5.
    Mrs. McMorris Rodgers. It feels like the administration 
continues to flip-flop, though, on where they are going to be 
on possibly proposing and when they might come, and so I guess 
I just want to also--it just begs the question, why are you 
opposing what is a very simple bill to clarify and send a clear 
signal to our farmers and ranchers that farm dust that is 
stirred up while they are working in the fields will not be 
regulated?
    Ms. McCarthy. I tried to make it clear that that is not 
what this bill says or does.
    Mrs. McMorris Rodgers. Would you be willing to--would you 
give us your recommendations on how we could write that bill?
    Ms. McCarthy. We would certainly provide any assistance we 
can to the committee and that the chairman asks us to provide. 
I will tell you that it is a little baffling to me, because 
generally I am here because we are proposing to do something 
that you disagree with. Now we are proposing to do something 
that you agree with, and I am still here. There is got to be 
something we can do that----
    Mr. Whitfield. We like you, Ms. McCarthy.
    Mrs. McMorris Rodgers. It is the fear of what you might do 
in this example.
    Ms. McCarthy. But in one case, the fear is that the 
Administrator will be proposing something and it is sure to 
happen. In this case, the Administrator may be proposing 
something and you don't think it is going to happen. The 
Administrator has been really clear. She is given this 
discretion under the law, and she will use that discretion 
wisely and she has made it clear the direction that we are 
heading.
    Mrs. McMorris Rodgers. We have heard you say many times 
today ``at this point in time'' and we don't know when that 
might change.
    I yield back.
    Mr. Rush. Mr. Chairman, on that note, I would, if I could, 
ask unanimous consent to enter into the record the EPA 
technical assistance letter requested by myself and Ranking 
Member Waxman.
    Mr. Whitfield. Without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.100
    
    [GRAPHIC] [TIFF OMITTED] T6176.101
    
    [GRAPHIC] [TIFF OMITTED] T6176.102
    
    [GRAPHIC] [TIFF OMITTED] T6176.103
    
    Mr. Whitfield. Thank you so much.
    At this time I recognize the gentleman from California, Mr. 
Bilbray, for 5 minutes.
    Mr. Bilbray. Thank you very much, Mr. Chairman.
    I was sort of taken back by comments made by the gentleman 
from Santa Monica that somehow there is no regulation on 
farming and nobody is proposing regulations on farming and that 
the whole concept of regulating farming is a myth, and I would 
like you to kind of, you know, bring me back up to speed. It 
has been a while since I have been in the clean air, you know, 
game. Wasn't there or isn't there an ongoing program to reduce 
silicone emissions in the western San Joaquin Valley?
    Ms. McCarthy. Yes, there is.
    Mr. Bilbray. And that is PM<INF>10</INF>, ma'am, and 2.5?
    Ms. McCarthy. Yes, that is true.
    Mr. Bilbray. OK. So isn't there also an ongoing program to 
reduce or eliminate the use of gravel or the use of gravel 
roads in the Sierra Nevada because of the dust potential with 
serpentine being used as the gravel?
    Ms. McCarthy. I am not aware of that. I apologize.
    Mr. Bilbray. OK. If you could ask your staff to take a look 
at that.
    And then the Owens Valley is a very rural, very isolated 
area. Have they abandoned their concept of particulate 
management in the Owens Valley?
    Ms. McCarthy. No, there are many areas in California that 
are out of attainment of those standards and that work with the 
agricultural and other communities to try to reduce dust.
    Mr. Bilbray. So for the record, there has been historically 
intervention in a rural area by regulatory agencies to control 
and regulate both PM<INF>10</INF> and 2.5?
    Ms. McCarthy. Yes.
    Mr. Bilbray. OK. I just want to make that clear because the 
reference was like nobody has ever done this, we are not 
talking about this, and the fact is, when somebody out in the 
West starts talking about this, you know, let me tell you, the 
gentleman from Santa Monica is saying in our own State we have 
had extensive impact on ag and rural area impacts in our clean 
air management, and I think it is disingenuous to tell the rest 
of the country that these things haven't happened and won't 
happen and don't be worried about it. I think there is a very 
real situation that we ought to be open and frank about and not 
try to deny the fact that there is a real potential, either now 
or in the future, that farming operations, that rural 
activities will be severely impacted in their traditional 
historical manner of operation because we are looking at 
addressing both of these particulate issues. Is that fair to 
say?
    Ms. McCarthy. I am sorry. I think I sort of----
    Mr. Bilbray. Is it fair to say that from the history of 
what we have done in other parts of this country to manage the 
particulate issue that it is unfair to tell the people in the 
rest of rural America that there is no way they are going to be 
impacted, no way that their operations may be modified?
    Ms. McCarthy. Ever? I certainly would never make that claim 
one way or the other.
    Mr. Bilbray. I just--farming has been curtailed in 
California in certain areas during certain times of the year. 
Farming has been impacted. The use of water and the way the 
water was distributed in a State that is dying for water has 
been impacted through this management practices on this, and I 
just think we need to clarify that, you know, there is this 
issue of once you justify taking action on the item, you do not 
say rural, urban has a different game. You do not say farming 
will be protected in our implementation. Everybody is thrown 
into the pile. There is no guarantee that traditional 
agricultural activities will not be severely impacted once you 
start implementing the programs, right?
    Ms. McCarthy. You look at all sources of pollution. I will 
say in terms of agriculture that how the States and local air 
districts have worked with USDA and the agriculture community 
has actually be very collaborative, and in the San Joaquin 
Valley, as far as I know, it has been enormously successful.
    Mr. Bilbray. Well, I think that if we see the impact and a 
lot of the concerns over there, and the Owens Valley is the 
other one that still is a real issue of do we use our water to 
feed our cities and our crops or do we use the water to spray 
over the Owens Valley to reduce the particulate matter. That is 
the kind of catch-22 that we get into.
    Ms. McCarthy. One of the reasons why we work with USDA is 
there are a number of strategies that the farming community can 
employ. Many of them are supported by----
    Mr. Bilbray. To interrupt, I want to make it clear. You 
made a statement that this impacts urban areas, and I think you 
want to correct that. It does not only urban areas. Rural areas 
are impacted severely with the PM<INF>10</INF> and 2.5 and the 
potential. A nonattainment area does not know if it is an urban 
area or rural area. Nonattainment areas are managed as one 
proposal.
    Ms. McCarthy. May I clarify the point I was trying to make?
    Mr. Bilbray. Yes.
    Ms. McCarthy. I am sorry.
    Mr. Whitfield. Go ahead.
    Ms. McCarthy. Very quickly. What I was talking about is how 
you identify nonattainment areas. We monitor nonattainment 
areas. We don't model them. Our monitoring is focused on areas 
where you have both high levels as well as high population 
density. So even in the areas that you are talking about, they 
are surrounding high population density areas, although the 
rural areas may come in as part of the nonattainment area.
    Mr. Bilbray. Excuse me, ma'am. The Central Valley is not an 
urban area, and the great majority is nonattainment. I yield 
back.
    Mr. Whitfield. Ms. McCarthy, you raised an interesting 
issue on the monitors. Would you provide the committee with a 
list of where monitors are located by State and how that is 
determined?
    Ms. McCarthy. Of course.
    Mr. Whitfield. Thank you.
    It looks like there are no more questions, so Ms. McCarthy, 
thanks very much for being with us today. We appreciate your 
time and look forward to working with you as we move forward.
    At this time I would like to call up the third panel. On 
the third panel, we have seven witnesses. First, Mr. Steve 
Foglesong, who is a ranch owner of the Black Gold Cattle 
Company and immediate past President of the National 
Cattlemen's Beef Association. We have Mr. Kevin Rogers, who is 
the President of the Arizona Farm Bureau, who is testifying on 
behalf of the American Farm Bureau. We have Mr. Pete Lien, who 
is the President of Pete Lien and Sons, Inc., who is testifying 
on behalf of National Stone, Sand and Gravel Association. We 
have Mr. Till von Wachter, PhD, Associate Professor of 
Economics at Columbia University. We have Mr. John Walke, who 
is Senior Attorney and Director of the Clean Air Program at the 
Natural Resources Defense Council. And we have Gregory 
Wellenius, who is Assistant Professor of Community Health at 
Brown University.
    So I want to thank all of you for joining us this afternoon 
to discuss H.R. 1633 and the regulation of particulate matter. 
We look forward to your testimony. Each one of you will be 
recognized for 5 minutes for your opening statement, and so Mr. 
Foglesong, we will start with you and you will be recognized 
for 5 minutes, and be sure and turn your microphone on.

 STATEMENTS OF STEVE FOGLESONG, RANCH OWNER, BLACK GOLD CATTLE 
 COMPANY, ON BEHALF OF NATIONAL CATTLEMEN'S BEEF ASSOCIATION; 
  KEVIN ROGERS, PRESIDENT, ARIZONA FARM BUREAU FEDERATION, ON 
     BEHALF OF AMERICAN FARM BUREAU FEDERATION; PETE LIEN, 
   PRESIDENT, PETER LIEN & SONS, INC., ON BEHALF OF NATIONAL 
  STONE, SAND AND GRAVEL ASSOCIATION; KURT E. BLASE, PARTNER, 
   HOLLAND & KNIGHT, ON BEHALF OF COARSE PARTICULATE MATTER 
COALITION; TILL VON WACHTER, ASSOCIATE PROFESSOR OF ECONOMICS, 
COLUMBIA UNIVERSITY; JOHN WALKE, SENIOR ATTORNEY AND CLEAN AIR 
   DIRECTOR, NATURAL RESOURCES DEFENSE COUNCIL; AND GREGORY 
     WELLENIUS, ASSISTANT PROFESSOR OF EPIDEMIOLOGY, BROWN 
                           UNIVERSITY

                  STATEMENT OF STEVE FOGLESONG

    Mr. Foglesong. There we go. Thank you for the technological 
advice. Us ranchers sometimes struggle with that.
    Mr. Whitfield. Well, everyone forgets.
    Mr. Foglesong. Oh, OK. I am feeling more comfortable all 
the time.
    Good morning, Chairman Whitfield and Ranking Member Rush 
and members of the subcommittee. Anybody that knows anything 
about cattle ranching and feeding knows that many operations 
are located where wind blows, and that makes dust a part of 
everyday life. The idea that the EPA may decide to require me 
and other cattle producers in every part of the country to 
somehow control that dust gives me cause to lose a lot of sleep 
at night. The fact is, farmers and ranchers want and need 
certainty about this issue.
    While I and ranchers across the United States are pleased 
the EPA has decided not to propose to lower the standard this 
year, we can't be 100 percent sure of that outcome of the 
rulemaking until it is final. In fact, in 1996 the EPA proposed 
to remove the PM<INF>10</INF> 24-hour standard altogether only 
to bring it back in the final rule, and then again in 2006 the 
EPA proposed to exempt ag dust. That exemption also disappeared 
in the final rule. In addition, even if the EPA retains the 
current dust standard, the opportunity remains for that agency 
to tighten it in the future. Unless Congress passes the Farm 
Dust Regulation Prevention Act, that threat remains.
    Now, I know that the EPA currently regulates dust. Cattle 
operations have found it very difficult and expensive to 
comply. One operation that I know of in Arizona spent $400,000 
to comply with that current standard. That is $1,000 a day just 
to control dust. Most of that is to sprinkle water in those 
pens, and that is just the current standard. Just think about 
how much it would cost if the EPA were to actually lower that 
standard in the future. If that happens, the simple fact is 
that many farms and ranches may be forced out of business.
    Ranchers have been concerned about that possibility for 
many years but most recently the fear surfaced when EPA 
revealed it is considering making the dust standard essentially 
twice as stringent as the current standard. NCBA and the Coarse 
Particulate Matter Coalition commissioned a study on the impact 
of the possible new dust regulation on rural America. The study 
determined that vast areas of the Midwest, Southwest and 
western parts of the United States would be thrown into the 
brink of nonattainment if not completely into that 
nonattainment altogether.
    It would be one thing if there were a good reason to 
regulate farm dust, but there is not. The regulation of dust 
under the Clean Air Act is supposed to be based on scientific 
evidence of adverse health effects. Historically, there has 
been no such evidence of adverse health effects from dust at 
ambient levels but EPA has decided to regulate it anyway. Why? 
In 2006, EPA based its decision on the precautionary principle. 
That is right. EPA's dust regulation is not based on science 
but on supposition. Let me explain. Particulate matter is 
separated into two distinct sizes and kinds of matter. Fine PM 
is combustion-driven material and the size range of 2.5 microns 
and smaller, known as PM2.5. That is cigarette smoke. Coarse 
particulate matter, or dust, on the other hand, is bigger 
particles in the range of 10 microns and smaller down to 2.5 
microns. PM<INF>10</INF> includes both sizes and kinds of 
particles. The reason I mention particle size and composition 
is because, incredibly, the EPA is regulating dust using 
scientific studies that show adverse health effects that may 
all be caused by combustion-type fine PM, not dust. The studies 
EPA reviewed are studies looking at the health effects of 
PM<INF>10</INF> from urban areas that are contaminated with 
combustion-type fine PM. Any adverse health effects the studies 
reveal may well be caused by the fine PM, not the coarse PM.
    Use of these studies to identify health effects for 
purposes of establishing a coarse PM dust standard is 
inappropriate, especially for rural areas, where urban 
contaminants are not a concern. Nevertheless, EPA uses a single 
standard to regulate dust in urban and rural areas. The 
contaminant issue I mentioned is just one of many problems with 
the EPA's PM<INF>10</INF> studies.
    I am not a scientist or a medical doctor but I want a 
confirmation, so we asked Dr. Jonathan Borak, Clinical 
Professor of Epidemiology and Public Health at Yale University 
School of Medicine, to review EPA's health studies. Dr. Borak 
is a highly respected scientist and in fact was one of the 
founding members of EPA's own Scientific Advisory Committee. He 
found many problems with the studies on which EPA relies and 
determined that those studies do not establish risk from a 
health basis for dust regulation. I have attached his comments 
to my testimony for the record.
    In an effort to bring a little common sense back into this 
process, cattlemen believe that the best solution is for 
Congress to pass the Farm Dust Regulation Prevention Act of 
2011. Regulatory uncertainty is unnecessary and unproductive. 
If EPA follows though and does not revise the dust standard, 
this action would to some degree provide us with certainty but 
for no more than 5 years. It provides no relief to producers 
who are spending over $1,000 a day on dust control measures 
right now. We need immediate, permanent relief from Federal 
dust regulations on farms and cattlemen believe the best way to 
achieve that is by passing the Farm Dust Regulation Prevention 
Act.
    Thank you, sir.
    [The prepared statement of Mr. Foglesong follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.104
    
    [GRAPHIC] [TIFF OMITTED] T6176.105
    
    [GRAPHIC] [TIFF OMITTED] T6176.106
    
    [GRAPHIC] [TIFF OMITTED] T6176.107
    
    [GRAPHIC] [TIFF OMITTED] T6176.108
    
    [GRAPHIC] [TIFF OMITTED] T6176.109
    
    [GRAPHIC] [TIFF OMITTED] T6176.110
    
    [GRAPHIC] [TIFF OMITTED] T6176.111
    
    [GRAPHIC] [TIFF OMITTED] T6176.112
    
    [GRAPHIC] [TIFF OMITTED] T6176.113
    
    [GRAPHIC] [TIFF OMITTED] T6176.114
    
    [GRAPHIC] [TIFF OMITTED] T6176.115
    
    [GRAPHIC] [TIFF OMITTED] T6176.116
    
    [GRAPHIC] [TIFF OMITTED] T6176.117
    
    [GRAPHIC] [TIFF OMITTED] T6176.118
    
    [GRAPHIC] [TIFF OMITTED] T6176.119
    
    [GRAPHIC] [TIFF OMITTED] T6176.120
    
    [GRAPHIC] [TIFF OMITTED] T6176.121
    
    [GRAPHIC] [TIFF OMITTED] T6176.122
    
    [GRAPHIC] [TIFF OMITTED] T6176.123
    
    [GRAPHIC] [TIFF OMITTED] T6176.124
    
    [GRAPHIC] [TIFF OMITTED] T6176.125
    
    [GRAPHIC] [TIFF OMITTED] T6176.126
    
    [GRAPHIC] [TIFF OMITTED] T6176.127
    
    [GRAPHIC] [TIFF OMITTED] T6176.128
    
    [GRAPHIC] [TIFF OMITTED] T6176.129
    
    [GRAPHIC] [TIFF OMITTED] T6176.130
    
    [GRAPHIC] [TIFF OMITTED] T6176.131
    
    [GRAPHIC] [TIFF OMITTED] T6176.132
    
    [GRAPHIC] [TIFF OMITTED] T6176.133
    
    [GRAPHIC] [TIFF OMITTED] T6176.134
    
    [GRAPHIC] [TIFF OMITTED] T6176.135
    
    [GRAPHIC] [TIFF OMITTED] T6176.136
    
    [GRAPHIC] [TIFF OMITTED] T6176.137
    
    [GRAPHIC] [TIFF OMITTED] T6176.138
    
    [GRAPHIC] [TIFF OMITTED] T6176.139
    
    [GRAPHIC] [TIFF OMITTED] T6176.140
    
    [GRAPHIC] [TIFF OMITTED] T6176.141
    
    [GRAPHIC] [TIFF OMITTED] T6176.142
    
    [GRAPHIC] [TIFF OMITTED] T6176.143
    
    [GRAPHIC] [TIFF OMITTED] T6176.144
    
    [GRAPHIC] [TIFF OMITTED] T6176.145
    
    [GRAPHIC] [TIFF OMITTED] T6176.146
    
    [GRAPHIC] [TIFF OMITTED] T6176.147
    
    [GRAPHIC] [TIFF OMITTED] T6176.148
    
    [GRAPHIC] [TIFF OMITTED] T6176.149
    
    [GRAPHIC] [TIFF OMITTED] T6176.150
    
    [GRAPHIC] [TIFF OMITTED] T6176.151
    
    [GRAPHIC] [TIFF OMITTED] T6176.152
    
    [GRAPHIC] [TIFF OMITTED] T6176.153
    
    [GRAPHIC] [TIFF OMITTED] T6176.154
    
    [GRAPHIC] [TIFF OMITTED] T6176.155
    
    [GRAPHIC] [TIFF OMITTED] T6176.156
    
    [GRAPHIC] [TIFF OMITTED] T6176.157
    
    [GRAPHIC] [TIFF OMITTED] T6176.158
    
    [GRAPHIC] [TIFF OMITTED] T6176.159
    
    [GRAPHIC] [TIFF OMITTED] T6176.160
    
    [GRAPHIC] [TIFF OMITTED] T6176.161
    
    [GRAPHIC] [TIFF OMITTED] T6176.162
    
    [GRAPHIC] [TIFF OMITTED] T6176.163
    
    [GRAPHIC] [TIFF OMITTED] T6176.164
    
    [GRAPHIC] [TIFF OMITTED] T6176.165
    
    [GRAPHIC] [TIFF OMITTED] T6176.166
    
    [GRAPHIC] [TIFF OMITTED] T6176.167
    
    [GRAPHIC] [TIFF OMITTED] T6176.168
    
    [GRAPHIC] [TIFF OMITTED] T6176.169
    
    Mr. Whitfield. Thank you, Mr. Foglesong.
    Mr. Rogers, you are recognized for 5 minutes.

                   STATEMENT OF KEVIN ROGERS

    Mr. Rogers. Thank you, Mr. Chairman. Members of the 
subcommittee, my name is Kevin Rogers. I am a fourth-generation 
farmer. I farm with my family over 7,000 acres of land in 
Arizona. We produce cotton, alfalfa, wheat, barley and corn 
silage. I am currently the President of the Arizona Farm Bureau 
and I also serve on the USDA Air Quality Task Force, which 
advises the Secretary of Agriculture on Federal clean air 
policies that affect farmers.
    I am pleased today to testify on behalf of the American 
Farm Bureau Federation in support of H.R. 1633, the Farm Dust 
Regulation Prevention Act. My farm in Arizona lies in one of 
the worst areas for dust PM 10 in the Nation. Within the past 
couple of months, four huge naturally occurring dust clouds 
rose from the desert floor and swept over Phoenix. Also, some 
of that happened in Texas as well. It covered Tucson in 
southern Arizona as well. This is the dust that EPA regulates 
under the coarse particulate matter with the National Ambient 
Air Quality Standard. H.R. 1633 provides a reasonable and 
commonsense approach to controlling ambient PM in a way that 
recognizes the natural occurrence of farm dust while also 
recognizing the public health mandate the Clean Air Act 
requires. By excluding nuisance farm dust from regulation, the 
bill allows EPA to continue regulating manmade emissions of 
particulate matter while at the same time not trying to 
regulate natural occurrences. The exclusion focuses EPA's 
attention on things that EPA can control rather than trying to 
regulate nature.
    The bill does not roll back any EPA protections afforded 
under the Clean Air Act. Rather, it reinforces the idea that 
regulatory decisions should be based on sound science.
    The record here is clear that scientific data on possible 
health effects of PM<INF>10</INF>, or dust, is highly 
uncertain. The bill provides the necessary flexibility for EPA 
to step in and regulate if the science more conclusively shows 
the naturally occurring farm dust causes adverse health 
effects. The bill recognizes the great disparity in the coarse 
PM<INF>10</INF> ambient air quality levels from one part of the 
country to another, from rural to urban areas, by providing for 
State and local regulation of rural nuisance dust from farming 
areas. The bill allows management flexibility to deal with 
unique local circumstances.
    We do applaud the recent announcement by Administrator 
Jackson that EPA will not propose changes to the current 
PM<INF>10</INF> standard. That does not mean that farm dust is 
not or will not be regulated under the Clean Air Act. For those 
of us in a coarse PM<INF>10</INF> nonattainment area, our 
activities have already been regulated and will continue to be 
regulated. The Phoenix area has not been in compliance with the 
coarse PM<INF>10</INF> NAAQS standard for many years.
    Arizona Farm Bureau participated with the State to develop 
a coarse PM<INF>10</INF> permit to control agricultural 
PM<INF>10</INF> emissions and reduce our agricultural practices 
that produce PM. The program developed best management 
practices in three different categories. The farmers are 
required to adopt one BMP in each category. The program was 
recently amended to require two BMPs from each category. Now 
the EPA and the State, because we continue to be in a 
nonattainment area, are pushing for more restrictions and 
mandating restrictions against working the fields when winds 
reach a certain speed.
    All farms and ranches activities in a nonattainment area 
are regulated under the Clean Air Act. The program we have is a 
mandatory program, and all producers must participate. Those 
who do not participate in our BMP program must obtain an 
individual air permit, similar to those required by utilities 
and factories. BMPs include practices such as tillage based on 
soil moisture, not working the fields in windy conditions, 
modifying equipment to prevent PM generation, speed limits on 
unpaved roads, planting wind breaks and permanent cover crops, 
just to name a few. All these activities place restrictions on 
farming operations and have economic consequences.
    I can tell you that if I am required to park my tractor on 
windy days or when soil moisture is insufficient, it continues 
to cost me time and money in lost labor and productivity, or if 
I am required to have my employees drive 15 miles an hour on my 
farm dirt roads, it will greatly increase the time we must 
spend on these roads, taking time away from engaging in other 
more productive activities. Others with similar restrictions 
suffer similar economic hardships.
    The fact that Administrator Jackson has determined to 
retain the current coarse PM<INF>10</INF> standard for the next 
5 years is very good news, but it only addresses one part of 
the dust problem facing rural America. H.R. 1633, by excluding 
naturally occurring nuisance farm dust from the Clean Air Act, 
unless the science is more conclusive, warrants it, addresses 
the other.
    I thank the committee for your time and look forward to 
answering questions when it is appropriate.
    [The prepared statement of Mr. Rogers follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.170
    
    [GRAPHIC] [TIFF OMITTED] T6176.171
    
    [GRAPHIC] [TIFF OMITTED] T6176.172
    
    [GRAPHIC] [TIFF OMITTED] T6176.173
    
    [GRAPHIC] [TIFF OMITTED] T6176.174
    
    [GRAPHIC] [TIFF OMITTED] T6176.175
    
    [GRAPHIC] [TIFF OMITTED] T6176.176
    
    [GRAPHIC] [TIFF OMITTED] T6176.177
    
    [GRAPHIC] [TIFF OMITTED] T6176.178
    
    [GRAPHIC] [TIFF OMITTED] T6176.179
    
    [GRAPHIC] [TIFF OMITTED] T6176.180
    
    [GRAPHIC] [TIFF OMITTED] T6176.181
    
    [GRAPHIC] [TIFF OMITTED] T6176.182
    
    [GRAPHIC] [TIFF OMITTED] T6176.183
    
    Mr. Whitfield. Thank you, Mr. Rogers.
    Mr. Lien, you are recognized for 5 minutes.

                     STATEMENT OF PETE LIEN

    Mr. Lien. Chairman Whitfield and members of the 
subcommittee, thank you for inviting me to testify on behalf of 
the National Stone, Sand and Gravel Association at this hearing 
on the Farm Dust Regulation Prevention Act, which would prevent 
the harmful effects of EPA's regulations of nuisance dust.
    My name is Pete Lien. I am President of Pete Lien and Sons 
of South Dakota, which was started in 1944 by my grandfather. 
Representative Noem is my Congresswoman, and I am pleased to 
express NSSGA's support of her legislation.
    My association's members produce more than 90 percent of 
the crushed stone and 70 percent of the sand and gravel 
consumed annually in the United States. There are more than 
10,000 construction aggregate operations nationwide. Aggregates 
are the chief ingredients in asphalt, concrete and used in 
nearly all residential, commercial and industrial building 
construction and in most public works projects including roads, 
highways, bridges, dams, airports, water and sewage treatment 
plants, and tunnels
    The aggregates industry has experienced the most severe 
recession in its history. Production of aggregates has gone 
from 3 billion metric tons valued at $21 billion in 2006 to 2 
billion metric tons valued at $17 billion in 2010, a drop of $4 
billion. Of particular importance to this hearing is 70 percent 
of NSSGA members are considered small businesses and many are 
located in rural area.
    NSSGA members are committed to full compliance with all 
pertinent environmental laws and regulations and emphasize 
sustainable practices. I am proud to say my own family business 
has reserves and plans for 200 years of operation into the 
future. We have also won numerous awards including a letter of 
commendation from the Bureau of Land Management for reclamation 
before reclamation was even required by law. We are the winner 
of the NSSGA's Environmental Steward Award, and the only quarry 
ever to win EPA's Earth Care Award, which was presented by 
Robert Redford.
    Like agriculture, resource-based industries such as 
aggregate producers have limited opportunities to reduce dust. 
To meet the current standard for dust, or PM<INF>10</INF>, 
aggregate facilities are required to have permits with State 
environmental agencies which seem to control dust by limiting 
production and requiring control technologies to limit dust on 
crushers and other equipment and road maintenance. Some dust is 
generated at an aggregates operation by crushing stone and 
truck traffic. However, most of it is from uncontrollable 
sources such as from roads and windblown dust, particularly in 
our rural areas.
    There is no practical way to control natural dust sources 
in the West and Southwest and reduce the PM<INF>10</INF> 
ambient air concentration. Nevertheless, EPA continues to 
promulgate unworkable standards that hurt job growth without 
any health benefits. For example, in Utah, if EPA would have 
reduced the standard by as much as a half, 23 of the 29 
counties would go into nonattainment, which would result in 
extreme limits on production and/or facility closures and 
further threaten much-needed highway funding.
    One NSSGA member has calculated that in order to meet a 
lowered standard as contemplated by EPA, a typical facility 
would have to reduce production by more than two-thirds. This 
would substantially change the business model and lead to plant 
closure and the loss of 50 jobs or dramatic increase in the 
price of the product. Given the over 10,000 operations in the 
United States and virtually every Congressional district is 
home to an aggregates operation, this could result in 
significant job losses.
    Taken further, a cut in aggregates production would lead to 
a shortage of stone, concrete and asphalt for State and Federal 
road building and repair, commercial and residential 
construction, which in turn would cause an increase in the 
price of materials for those projects ranging from 80 percent 
to 180 percent and further suppress employment in the 
construction industry. Given that infrastructure investment is 
essential to economic recovery and growth, any change in the 
PM<INF>10</INF> standard would impose an additional burden on 
the aggregates industry that is unwarranted and would adversely 
impact aggregate supply and vitally important American jobs.
    NSSGA appreciates this opportunity to speak on the 
devastating effects of over-regulating nuisance dust on the 
aggregates industry.
    Thank you, Mr. Chairman. I will be glad to respond to 
questions.
    [The prepared statement of Mr. Lien follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.184
    
    [GRAPHIC] [TIFF OMITTED] T6176.185
    
    [GRAPHIC] [TIFF OMITTED] T6176.186
    
    [GRAPHIC] [TIFF OMITTED] T6176.187
    
    [GRAPHIC] [TIFF OMITTED] T6176.188
    
    [GRAPHIC] [TIFF OMITTED] T6176.189
    
    [GRAPHIC] [TIFF OMITTED] T6176.190
    
    [GRAPHIC] [TIFF OMITTED] T6176.191
    
    [GRAPHIC] [TIFF OMITTED] T6176.192
    
    [GRAPHIC] [TIFF OMITTED] T6176.193
    
    [GRAPHIC] [TIFF OMITTED] T6176.194
    
    [GRAPHIC] [TIFF OMITTED] T6176.195
    
    [GRAPHIC] [TIFF OMITTED] T6176.196
    
    [GRAPHIC] [TIFF OMITTED] T6176.197
    
    Mr. Whitfield. Thank you.
    And Mr. Blase, we appreciate your being with us. I failed 
to state that you are representing the Coarse Particulate 
Matter Coalition. You are recognized for 5 minutes.

                   STATEMENT OF KURT E. BLASE

    Mr. Blase. Thank you. Good morning, Chairman Whitfield, 
Ranking Member Rush and members of the subcommittee. Thanks for 
inviting me to testify this morning. My name is Kurt Blase, and 
I am Counsel to the Coarse Particulate Matter Coalition.
    The coalition is an organization of industry groups with an 
interest in scientifically sound regulation of coarse PM and 
air. The current members of the coalition are listed in my 
written testimony.
    The past two reviews of the National Ambient Air Quality 
Standard for PM<INF>10</INF> have focused increasingly on road 
dust as a potential public health threat. The theory has been 
that dust by urban roadsides can become contaminated by other 
materials that render them more toxic. In contrast, dust 
composed primarily of crustal material has been reported to be 
harmful only at ambient levels much higher than the current 
Federal standard.
    Our coalition consistently has supported retention of the 
current PM<INF>10</INF> standard while exploring avenues of 
relief for natural dust emissions. The current standard limits 
production and therefore employment by imposing stringent dust 
emission limits in permits and State plans. Compliance with the 
current standard is very difficult to maintain at our 
operations. We have been surprised by recent contentions that 
the regulation of dust is inconsequential.
    There is one extra point I would like to make here with 
respect to permits. We have talked a lot this morning about the 
effect of nonattainment areas where the monitors are placed. A 
couple of things there. I mean, even if you are in an 
unmonitored area now, if the feds change their monitoring 
criteria, their siting criteria, you can be monitored. If a 
private party such as the Sierra Club story that Mr. Hurt told 
wants to come and monitor you, they can do that. And more 
importantly, for our group, really nonattainment and monitoring 
is almost not an issue because we have to have permits and our 
permits have to show attainment of the standard at the fence 
line regardless of the attainment status of the area in 
concern. I mean, it is these permits even more than the 
nonattainment or attainment designation that are limiting our 
ability to produce right now on the basis of this standard.
    It is widely recognized that coarse PM concentrations vary 
widely on a local and regional basis. A recent study 
commissioned by our coalition, which was mentioned earlier, 
sheds further light on this issue. A copy of the report is 
attached to my testimony. I would like to emphasize several of 
the conclusions here.
    There are great differences in both the quantity and 
quality of coarse PM emissions throughout the United States. 
For example, PM<INF>10</INF> in the West, Southwest and Midwest 
is composed primarily of coarse particulate matter while 
PM<INF>10</INF> in the East is composed primarily of fine 
particulate matter. In the West, Southwest and Midwest, the 
variations among PM<INF>10</INF> within single counties are 
very high. By contrast, the within-county differences in the 
East are much smaller.
    The localized nature of dust impacts leads to a great 
disparity in the effects of a single Federal standard on the 
different areas of the country. Our study focuses on the 
impacts of a potential new standard recommended for 
consideration in EPA's PM policy assessment. The potential new 
standard would be set somewhere within the range of 65 to 85 
micrograms per cubic meter with a change to the 98 percent 
statistical form. The policy assessment concludes that a 
standard of 85 with a change in the form would be roughly 
equivalent to the current standard, and I heard the Assistant 
Administrator repeat that several times this morning. However, 
our study concludes that such a standard would be much more 
stringent than the current standard, particularly in the West, 
Southwest and Midwest as a result of the nature of the 
PM<INF>10</INF> emissions in those areas.
    Under the potential new standard, localized areas in 
virtually all of the West, Southwest and Midwest would be 
vulnerable to exceeedances. This is depicted in a map taken 
from our report, which is attached to my testimony, and I don't 
have it handy but it covers--oh, there it is. OK. You can see 
the extent of the country that it covers these. In these 
vulnerable areas, farmers, owners of dirt roads and operators 
of material storage and handling equipment will have few, if 
any, reasonable options to reduce emissions. Employment and 
businesses generating fugitive crustal dust will be impacted 
negatively. This impact would occur despite the conclusion in 
the policy assessment that the current Federal standard can 
reasonably be judged to provide sufficient public health 
protection.
    Given the choice between the current and the potential new 
Federal standards, we have consistently supported retention of 
the current standard. In that respect, we are encouraged by the 
Administrator's recent letter indicating that EPA will propose 
to retain the current standard. However, the reasons I have 
discussed, we believe that State and local regulation is a much 
more efficient and effective means of protecting public health 
against dust emissions that have a very localized impact. 
Accordingly, we strongly support H.R. 1633 and we urge the 
subcommittee to adopt it.
    I would be glad to answer any questions.
    [The prepared statement of Mr. Blase follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.198
    
    [GRAPHIC] [TIFF OMITTED] T6176.199
    
    [GRAPHIC] [TIFF OMITTED] T6176.200
    
    [GRAPHIC] [TIFF OMITTED] T6176.201
    
    [GRAPHIC] [TIFF OMITTED] T6176.202
    
    [GRAPHIC] [TIFF OMITTED] T6176.203
    
    [GRAPHIC] [TIFF OMITTED] T6176.204
    
    [Additional information for the record is available at 
http://www.beefusa.org/CMDocs/BeefUSA/Issues/
PM%20Final%20PM10%20Report%200711.pdf]
    Mr. Whitfield. Thank you, Mr. Blase.
    Dr. von Wachter, you are recognized for 5 minutes.

                 STATEMENT OF TILL VON WACHTER

    Mr. von Wachter. Thank you, Chairman Whitfield, Ranking 
Member Rush and members of the subcommittee. It is a great 
honor to be with you today.
    Existing evidence suggests that air regulation provides 
important benefits in terms of improved air quality, improved 
health outcomes and improved housing values. However, it is 
also widely acknowledged that air regulation carries potential 
cost in terms of lower employment and lower productivity in 
regulated sectors. In my testimony, I will focus on current 
estimates of these costs and in particular on the costs for 
those workers most affected by the regulation, which are 
workers displaced when they are previously stable jobs.
    So current best estimates of the effect of the Clean Air 
Act suggest that the economic costs for workers present in 
regulated sectors at the time of regulation are non-negligible. 
Existing research has shown that employment and productivity in 
regulated sectors declines, at least in the short run. In 
addition, there are large and persistent wage reductions for 
workers induced to leave regulated firms, especially those who 
end up working in a different sector.
    Whether the costs of air regulation are of the same order 
of magnitude as the benefits in terms of improved health or 
housing values is likely to depend on the regulation and the 
environment which takes place. So for example, the most 
comprehensive study of the effects of the 1990 Clean Air Act 
Amendments suggests that there was a loss in wages over the 
next 10 years of workers who went through nonattainment of 
about $9 billion. Now, that is relative to the estimated 
benefits of the 1990 Clean Air Act Amendments. These losses 
appear to be temporary.
    However, it is important to keep in mind that the 1990 
Clean Air Act Amendments may have represented a best-case 
scenario. Why would that be? Well, this is because the 
amendments came into force not long before the high-pressure 
labor market in the mid to late 1990s, and this matters, 
because the cost of regulation in terms of lost wages and 
employment tends to mostly accrue to workers who are actually 
displaced due to the regulations, so it is job losers that lose 
their jobs as a consequence of regulation who bear most of the 
costs and job losses, especially for job losses for workers who 
had found a stable job at a good, stable firm can lead to very 
long-lasting large earnings losses. These earnings losses can 
least up to 10 to 15 to 20 years, and job loss is also followed 
by extended periods of job instability and earnings 
instability, and during these periods, job losers can 
experience decline in health. For example, in severe downturns, 
these health declines can lead to significant reduction in life 
expectancy over the next 20 or 30 years after a job loss.
    The consequences of job loss are also felt by workers' 
children, who can suffer from the consequences even as adults 
and by their families, and job losses have also been associated 
with a higher rate of entry into potentially costly public 
programs such as Social Security disability insurance or early 
claiming of retirement benefits.
    The earnings costs of job displacement, and this is 
important, has found to be substantially higher in recessions 
than in booms. While we know that even displacement in good 
economic periods can lead to lasting earnings losses, the one 
exception is the mid to late 1990s where even job losers tend 
to recover a big chunk of their earnings losses. So workers 
displaced from the firms as a consequences of the 1990 Clean 
Air Act Amendments were placed in an ideal case scenario 
because a few years down the road a very high-pressure economy 
pushed up their earnings.
    To conclude, while many workers affected by air regulations 
are likely to be sufficient mobile to find a new job without 
major losses in employment and warnings, a subset of workers 
induced to move from their job due to the regulation either 
voluntarily or by layoff are at risk of experiencing quite 
large and lasting losses of earnings. Existing research 
suggests that these earning losses may be substantially larger 
in difficult economic environments.
    Based on these findings, the economic costs of air 
regulations are likely to depend very much on the economic 
circumstances in which the regulation is enacted. Hence, a 
case-by-case assessment of these costs and their dependence on 
the economic environment, the type of regulation and the type 
of workers affected are important aspects when considering the 
net gain of air regulation.
    Now, since I have a few seconds left, let me say, the 
results I quoted from the scientific studies mainly pertain to 
any reason the county could go into nonattainment that includes 
the PM<INF>10</INF> standard, but it is not focused on this 
like PM3 to PM<INF>10</INF> thus it could be due to coarse 
particulate matter. It could be just due to fine particulate 
matter or any other of the other criteria.
    Now, the question you are asking, namely, has coarse 
particulate matter differential effect in rural areas that are 
engaging in agricultural production, or where there is a power 
plant or mining, as opposed to urban area is a very important 
question that academics potentially can answer, but it is a 
very difficult question that requires, as you can imagine, a 
very large amount of data. So this is sort of a call in my last 
seconds to provide this detailed amount of information so we 
can actually answer that important question you were asking.
    [The prepared statement of Mr. von Wachter follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.205
    
    [GRAPHIC] [TIFF OMITTED] T6176.206
    
    [GRAPHIC] [TIFF OMITTED] T6176.207
    
    [GRAPHIC] [TIFF OMITTED] T6176.208
    
    Mr. Whitfield. Thank you, Dr. von Wachter.
    Mr. Walke, you are recognized for 5 minutes.

                    STATEMENT OF JOHN WALKE

    Mr. Walke. Thank you, Mr. Chairman and members of the 
subcommittee. My name is John Walke. and I am Clean Air 
Director for the Natural Resources Defense Council.
    As the hearing today has shown, H.R. 1633 is premised on a 
problem that does not exist, that is, nonexistent EPA limits on 
farm dust. However, the devilish details of this poorly drafted 
bill actually create more real problems that the imaginary 
problems the bill purports to solve.
    The bill is sweepingly overbroad and it creates numerous 
damaging consequences that appear to be unintended but that 
would in fact harm Americans. The result would be increases in 
harmful soot pollution, not just coarse particulate matter but 
deadly fine particulate matter, and across the country, not 
just in rural America but urban and metropolitan areas too. The 
legislation inexplicably weakens, eliminates or blocks Federal 
Clean Air Act authority over overwhelmingly industrial 
pollution from power plant, manufacturing facilities, mines and 
the like, again as a result of very overbroad and poor 
drafting.
    Before you consider voting for a bill under the 
misconception that you are just addressing so-called farm dust, 
I urge your staff to examine closely the testimony by Assistant 
Administrator McCarthy and my own testimony to see whether you 
find fault with any of this legal analysis or factual 
implications of the bill. I will note that none of the other 
witnesses here today have contradicted those legal 
interpretations in their written testimony.
    Finally, I urge your attention to a careful reading of the 
written testimony of most of the majority witnesses and 
Representative Noem's opening statement. Each time that 
testimony complains of existing regulations of farm dust, they 
are talking about State regulation, not EPA regulation, for 
example, in Arizona or Illinois. Isn't it paradoxical then that 
this bill does not eliminate State regulation of farm dust or 
its monitoring? By the same token, some have criticized the 
temporary relief provided by Administrator Jackson's pledge yet 
this bill provides a 1-year period of relief whereas 
Administrator Jackson's pledge provides a 5-year period of 
relief, equally paradoxical.
    H.R. 1633 has been presented under the legislation guise of 
blocking nonexistent and unplanned EPA regulations of farm 
dust. I invite any witness or member to identify an EPA 
regulation in the Code of Federal Regulations where EPA imposes 
limits on farm dust. There are none.
    Since Mr. Terry, who is not with us now, mentioned NRDC 
earlier, I invite him or any other member to identify any 
statutory authority to compel EPA to impose limits on farm 
dust. There is no such authority from me or any other 
environmental group to invoke.
    Finally, I invite any member to identify any job in America 
that has been eliminated due to EPA limits on farm dust. There 
is none.
    If Congress truly wants to address so-called farm dust with 
a simple bill, all it would take is a single sentence that says 
EPA shall not limit farm dust if States are doing so already 
yet this legislation does far more and far worse. As Mr. Pompeo 
correctly reads the bill, it removes Federal Clean Air Act over 
deadly soot pollution from power plants, mines and the like if 
States if doing so already. Mr. Griffith does not read the bill 
that way, and I think it creates some genuine confusion about 
what the bill does, but Mr. Griffith does helpfully start to 
put his finger on things by pointing us to page 3 in line 15 of 
the bill where you could at least begin to address some of 
these problems in overdrafting with the addition of the word 
``and.'' However, I would like to note that this would still 
allow the exemption of pollution if an activity typically 
occurs in a rural area. As Mr. Waxman said, 70 percent of power 
plants do so. I don't think that is what the committee intends. 
By the same token, it would allow the exemption of pollution if 
it is windblown. I hope that we can agree that all pollution is 
windblown, and we don't want to eliminate Federal regulation by 
virtue of that fact.
    Section 3 really is the most problematic feature of the 
bill. I think my written testimony and Assistant Administrator 
McCarthy's testimony covers that, so I am not going to repeat 
that now. But I do have to say that this bill does produce what 
appear to be unintended consequences that I think could be 
corrected but not based upon the existing structure of the 
bill. I notice that elsewhere in the House this week the 
Judiciary Committee is considering the REINS Act, which 
purports to address and rein in excessive delegation of Federal 
authority to Federal agencies, and yet again, paradoxically, 
H.R. 1633 engages in excessive delegation of sweeping and vague 
authorities to deregulate industrial pollution across America. 
I don't think that is what the bill intends to do, and I would 
urge you not to pass H.R. 1633 in its present form. Thank you.
    [The prepared statement of Mr. Walke follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.209
    
    [GRAPHIC] [TIFF OMITTED] T6176.210
    
    [GRAPHIC] [TIFF OMITTED] T6176.211
    
    [GRAPHIC] [TIFF OMITTED] T6176.212
    
    [GRAPHIC] [TIFF OMITTED] T6176.213
    
    [GRAPHIC] [TIFF OMITTED] T6176.214
    
    [GRAPHIC] [TIFF OMITTED] T6176.215
    
    [GRAPHIC] [TIFF OMITTED] T6176.216
    
    [GRAPHIC] [TIFF OMITTED] T6176.217
    
    [GRAPHIC] [TIFF OMITTED] T6176.218
    
    [GRAPHIC] [TIFF OMITTED] T6176.219
    
    [GRAPHIC] [TIFF OMITTED] T6176.220
    
    [GRAPHIC] [TIFF OMITTED] T6176.221
    
    [GRAPHIC] [TIFF OMITTED] T6176.222
    
    [GRAPHIC] [TIFF OMITTED] T6176.223
    
    [GRAPHIC] [TIFF OMITTED] T6176.224
    
    [GRAPHIC] [TIFF OMITTED] T6176.225
    
    [GRAPHIC] [TIFF OMITTED] T6176.226
    
    [GRAPHIC] [TIFF OMITTED] T6176.227
    
    [GRAPHIC] [TIFF OMITTED] T6176.228
    
    [GRAPHIC] [TIFF OMITTED] T6176.229
    
    [GRAPHIC] [TIFF OMITTED] T6176.230
    
    [GRAPHIC] [TIFF OMITTED] T6176.231
    
    [GRAPHIC] [TIFF OMITTED] T6176.232
    
    [GRAPHIC] [TIFF OMITTED] T6176.233
    
    [GRAPHIC] [TIFF OMITTED] T6176.234
    
    [GRAPHIC] [TIFF OMITTED] T6176.235
    
    [GRAPHIC] [TIFF OMITTED] T6176.236
    
    [GRAPHIC] [TIFF OMITTED] T6176.237
    
    [GRAPHIC] [TIFF OMITTED] T6176.238
    
    [GRAPHIC] [TIFF OMITTED] T6176.239
    
    [GRAPHIC] [TIFF OMITTED] T6176.240
    
    [GRAPHIC] [TIFF OMITTED] T6176.241
    
    [GRAPHIC] [TIFF OMITTED] T6176.242
    
    [GRAPHIC] [TIFF OMITTED] T6176.243
    
    [GRAPHIC] [TIFF OMITTED] T6176.244
    
    [GRAPHIC] [TIFF OMITTED] T6176.245
    
    [GRAPHIC] [TIFF OMITTED] T6176.246
    
    [GRAPHIC] [TIFF OMITTED] T6176.247
    
    [GRAPHIC] [TIFF OMITTED] T6176.248
    
    [GRAPHIC] [TIFF OMITTED] T6176.249
    
    [GRAPHIC] [TIFF OMITTED] T6176.250
    
    [GRAPHIC] [TIFF OMITTED] T6176.251
    
    [GRAPHIC] [TIFF OMITTED] T6176.252
    
    [GRAPHIC] [TIFF OMITTED] T6176.253
    
    [GRAPHIC] [TIFF OMITTED] T6176.254
    
    [GRAPHIC] [TIFF OMITTED] T6176.255
    
    [GRAPHIC] [TIFF OMITTED] T6176.256
    
    [GRAPHIC] [TIFF OMITTED] T6176.257
    
    [GRAPHIC] [TIFF OMITTED] T6176.258
    
    [GRAPHIC] [TIFF OMITTED] T6176.259
    
    [GRAPHIC] [TIFF OMITTED] T6176.260
    
    [GRAPHIC] [TIFF OMITTED] T6176.261
    
    [GRAPHIC] [TIFF OMITTED] T6176.262
    
    [GRAPHIC] [TIFF OMITTED] T6176.263
    
    [GRAPHIC] [TIFF OMITTED] T6176.264
    
    [GRAPHIC] [TIFF OMITTED] T6176.265
    
    [GRAPHIC] [TIFF OMITTED] T6176.266
    
    [GRAPHIC] [TIFF OMITTED] T6176.267
    
    [GRAPHIC] [TIFF OMITTED] T6176.268
    
    Mr. Whitfield. Thank you.
    Dr. Wellenius, you are recognized for 5 minutes.

                 STATEMENT OF GREGORY WELLENIUS

    Mr. Wellenius. Thank you, Mr. Chairman. Members of the 
committee, thank you for the opportunity to testify today. My 
name is Dr. Gregory Wellenius. I am Assistant Professor of 
Epidemiology at Brown University.
    I earned my doctorate in environmental health and 
epidemiology from the Harvard School of Public Health. I 
previously served on the faculty at Harvard Medical School. I 
have been conducting research on the health effects of air 
pollution for more than 10 years. I have authored or coauthored 
more than a dozen original studies in this area and contributed 
as an author for the EPA's 2009 Integrated Science Assessment 
for Particulate Matter. My research has focused on the effects 
of ambient air pollutants on cardiovascular disease, and it is 
my pleasure to provide testimony in this area today.
    There is a broad consensus in the scientific and medical 
communities that ambient particles are harmful to human health. 
For example, after reviewing the scientific evidence, the 
American Heart Association recently stated that exposure to 
fine particles, or PM2.5, is ``a modifiable factor that 
contributes to cardiovascular morbidity and mortality.''
    The external panel of independent scientists that make up 
the Clean Air Scientific Advisory Committee, or CASAC, and EPA 
scientists concluded that a causal relationship exists between 
ambient fine particles and both mortality and cardiovascular 
effects and a likely causal relationship between ambient fine 
particles and respiratory effects. This conclusion has been 
endorsed by a number of scientific organizations including the 
World Health Organization, the National Research Council, the 
American Medical Association, the American Lung Association, 
and the American Thoracic Society, to name a few.
    As has been pointed out, the coarse and fine fractions of 
particulate matter differ in their size, sources and 
composition. In my written testimony, I provide further details 
regarding the well-established health effects of ambient fine 
particles. While fewer studies have looked specifically at the 
health effects of coarse particles, the existing evidence 
suggests that these particles can also be harmful to people's 
health.
    In the 2009 Integrated Science Assessment for Particulate 
Matter, CASAC and EPA scientists concluded that the available 
evidence is suggestive for a causal relationship between coarse 
particles and mortality, cardiovascular effects and respiratory 
effects. The available science indeed supports an association 
between coarse particles and cardiovascular hospital 
admissions. For example, a recent study in 112 U.S. cities 
found that coarse particles were linked with higher risk of 
premature death from all causes, stroke and respiratory causes, 
even after accounting for levels of fine particles. Taken 
together, the existing evidence suggests that exposure to 
higher levels of coarse particles may increase the risk of 
death, cardiovascular hospitalization and respiratory effects.
    Now, most epidemiologic studies on coarse particles have 
been conducted in urban settings. However, agricultural dust 
can also be harmful to people. Field workers exposed to minimal 
dust from agricultural sources experience more acute and 
chronic bronchitis, chronic obstructive airway disease and 
interstitial lung disease. Agricultural workers exposed to 
organic dust have been found to have a higher risk of allergic 
reactions, asthma, hypersensitivity pneumonitis and organic 
dust toxic syndrome. A studying examining the lungs of 
California farm workers found that their bronchioles had 
accumulation of dust particles and thickening and inflammation 
in the respiratory tissues.
    Sandstorms and other dust events typically increase the 
concentration of coarse particles much more than fine 
particles. Studying these events provides information on the 
potential health effects of coarse particles of non-urban 
origin. For example, Asian dust storms in Taipei, Taiwan, have 
been associated with increased rates of hospital visits for 
ischemic heart disease such as heart attacks. Other studies 
have linked dust events in Spain and Cyprus with increased risk 
of hospitalization or death. These studies add to the evidence 
of health effects of coarse particles and highlight that even 
coarse particles from nonurban environments can have important 
health effects.
    In conclusion, Congress built into the Clean Air Act an 
orderly process for the regular review of the scientific 
evidence on health effects of air pollution. This process 
includes multiple rounds of scientific peer review including by 
CASAC and other scientists and the public. I strongly urge you 
to preserve the authority of the EPA to periodically review the 
available scientific evidence and when appropriate update the 
air quality standards including for PM<INF>10</INF> and coarse 
particles. This process is essential if we are to adequately 
protect the public's health.
    I thank you for your time and would be happy to answer any 
questions.
    [The prepared statement of Mr. Wellenius follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.269
    
    [GRAPHIC] [TIFF OMITTED] T6176.270
    
    [GRAPHIC] [TIFF OMITTED] T6176.271
    
    [GRAPHIC] [TIFF OMITTED] T6176.272
    
    [GRAPHIC] [TIFF OMITTED] T6176.273
    
    [GRAPHIC] [TIFF OMITTED] T6176.274
    
    [GRAPHIC] [TIFF OMITTED] T6176.275
    
    [GRAPHIC] [TIFF OMITTED] T6176.276
    
    [GRAPHIC] [TIFF OMITTED] T6176.277
    
    [GRAPHIC] [TIFF OMITTED] T6176.278
    
    [GRAPHIC] [TIFF OMITTED] T6176.279
    
    [GRAPHIC] [TIFF OMITTED] T6176.280
    
    Mr. Whitfield. Thank you very much for your testimony.
    I will recognize myself for 5 minutes of questions. Mr. 
Walke, you heard me in the very beginning talk about this 
concern about the lawsuits being filed and so forth, and has 
the Natural Resources Defense Council ever sued EPA over the 
Clean Air Act?
    Mr. Walke. Yes, sir, Mr. Chairman, we have.
    Mr. Whitfield. Do you know how many times?
    Mr. Walke. You probably do if you have researched the 
question. I have not, though, sir.
    Mr. Whitfield. Well, I haven't either but----
    Mr. Walke. No, I don't know.
    Mr. Whitfield. And have you all been reimbursed for legal 
fees?
    Mr. Walke. When we win, yes.
    Mr. Whitfield. Would you provide us with the number of 
times that you all have filed suits against EPA and the number 
of dollar value of the reimbursement for the legal fees?
    Mr. Walke. I will do so the best of my ability. NRDC was 
formed in 1970 or 1971, so----
    Mr. Whitfield. Well, let us just say within the last 10 
years.
    Mr. Walke. OK.
    Mr. Shimkus. Mr. Chairman, will you yield?
    Mr. Whitfield. Yes.
    Mr. Shimkus. It would also be good to find out what was 
their compensation out of the judgment fund that paid their 
attorney fees.
    Mr. Whitfield. Yes, the amount of the legal fee reimbursed. 
It comes out of judgment fund, though, doesn't it, or the 
agency funds?
    Mr. Walke. Sure. I mean, Mr. Chairman, I would just say 
that the law only provides our ability to go to court and 
regain fees when the government is breaking the law.
    Mr. Whitfield. No, I understand.
    Mr. Shimkus. Mr. Chairman, I just think we should have 
those. For whatever reason, we want those dollar amounts.
    Mr. Whitfield. Yes. We won't get into a discussion.
    Mr. Rush. Mr. Chairman?
    Mr. Whitfield. Yes?
    Mr. Rush. I would also like, if I might, ask the gentleman 
if he would include what his win-loss ratio is, the number of 
times he sued, the number of times he lost and the number of 
times he won against the EPA.
    Mr. Whitfield. You want to know how many he won and how 
many he lost?
    Mr. Rush. Yes.
    Mr. Whitfield. He wants to know how many you have won and 
how many you have lost.
    OK. Anyway, so if you would--the number of lawsuits in the 
last 10 years, the amount of money that you have been 
reimbursed in legal fees when you have won, and how many cases 
you consider you won and how many you consider you lost.
    Mr. Walke. OK. It might take some time to do that, sir, so 
I will just ask your indulgence.
    Mr. Whitfield. Yes, sir.
    Mr. Rush. Is it OK if we give him 5 years?
    Mr. Whitfield. You and I may not be here in 5 years. Thank 
you so much.
    Mr. Foglesong, now, you represent the National Cattlemen's 
Association. Is that correct?
    Mr. Foglesong. The National Cattlemen's Beef Association, 
yes.
    Mr. Whitfield. And are there cattle producers that are 
struggling with meeting the current coarse particulate matter 
standard?
    Mr. Foglesong. You know, in particular, there are some of 
those, you know, in the Southwest. Arizona is a good example of 
that, you know, where they have got feed yards, and the expense 
that they incur to try to complex is just enough to break them. 
They just can't keep it going. But I think--and that what 
sticks in your mind, but understand that it can happen anyplace 
in the country. We had a map up there earlier that shows those 
places that are at risk, but I am from Illinois and we get 40 
inches of rainfall but I will guarantee you that last week I 
was in that position because it hasn't rained there in 2 months 
and the wind was blowing and we are all doing work. So I think 
that is one of the things that is a challenge. Our outfit in 
Georgia, it was the same thing. We had the worst drought there 
in 100 years this spring. Driving up and down our country dirt 
roads, every one of them was out of compliance. So all across 
the country you run into that, yes, sir.
    Mr. Whitfield. And there was great concern about the 
strengthening of this emission standard on coarse particulate 
matter because that would have changed the standard around the 
country and then there would have been areas in nonattainment 
and then there would be more enforcement mechanisms, and Mr. 
Rogers, you have experienced that personally, it sounds like. 
Is that correct?
    Mr. Rogers. Yes, sir, that is correct. We farm in Maricopa 
County in a nonattainment area.
    Mr. Whitfield. So what enforcement mechanisms must you 
comply with as a result of being in a nonattainment area in 
this coarse particulate matter issue?
    Mr. Rogers. Agriculture in Maricopa County was deemed 
through modeling to be about 3 percent of the problem of the 
Maricopa County area, which is probably a 75-square-mile 
county. It is a very large county. We only have 15 counties in 
Arizona. And so we were deemed to be 3 percent. You know, you 
come to the table with EPA being the 500-pound gorilla because 
what they hold over the State's head is the Federal tax 
dollars, the highway dollars coming back to the State, so there 
is motivation through your local government to come to the 
table and participate and so that is what we have done. We have 
had to come to the table and design a program with EPA looking 
over our shoulder to make sure that every step of the way they 
agree with what you are doing to put together your SIP.
    Mr. Whitfield. And could you just quickly go through a 
couple of----
    Mr. Rogers. Sure. We developed a best management practice 
program that is mandatory. Farmers do get to choose between 
practices under three different categories, diligent 
harvesting, cropland, non-cropland, so every part of my 
operation I have to be doing something and so it could include 
watering roads, it could include parking your tractors during 
high wind events where the wind gets to 26 miles an hour, speed 
limits on your farm roads where you have to regulate your own 
roads that you are in control of, waiting until there is 
moisture in the soil before you do tillage, waiting for rain to 
bring that moisture, or if you choose to irrigate, that is your 
option as well, but there is probably 40 best management 
practices that we had to come up with to help agriculture come 
to the table, to keep EPA happy and to keep our State happy 
because at 3 percent of the problem, they determined that we 
need to participate.
    We do have a county just south of Phoenix, Pinal County, 
which has been recently designated as nonattainment. That is 
where the livestock operation is that we talked about before. 
That particular livestock operation has taken it upon 
themselves to figure out what they can do to get into 
attainment. It takes 4 gallons of water per day per cow to meet 
the standard, and it is going to be very costly for them to do 
that.
    Mr. Whitfield. Forty gallons per cow per day?
    Mr. Rogers. Four gallons.
    Mr. Whitfield. Four?
    Mr. Rogers. Four gallons, but it is a large operation so it 
is going to cost a lot of money, and with four gallons per day, 
they were able to bring that under control and so they are 
going to--as we move forward with bringing livestock into our 
program, they are actually working with EPA and the State and 
that will probably be a mandatory number.
    Mr. Whitfield. Mr. Rush, you are recognized for 5 minutes.
    Mr. Rush. Mr. Walke, in your written testimony, you take 
issue with using the phrase ``farm dust'' as H.R. 1633 is named 
and say this bill is really an attempt to force EPA to ignore 
harmful soot pollution emitted overwhelmingly by industrial 
pollutants like coal-burning power plants, incinerators, 
chemical plants and diesel vehicles. Can you explain why you 
view this bill as a cover for abolishing the review of health 
standards for industrial pollution?
    Mr. Walke. Certainly, Mr. Rush. It is notable that the word 
``farm dust'' doesn't actually appear in the bill other than 
its title. The operative legal term of the bill in its most 
harmful bill is in section 3 in the definition of nuisance 
dust, and it is simple so I will just tell you the highlights. 
Nuisance dust means particulate matter from activities 
typically conducted in rural areas or windblown dust. Now, I 
just selected out some of those from a string. You know, as I 
showed in my testimony, activities typically conducted in rural 
areas include power plants, incinerators and manufacturing 
facilities and diesel vehicles, and, you know, by this very 
short, crisp and overbroad definition, all of those activities 
will be defined as particulate matter that could not be 
regulated by the Federal Government if the States are doing so, 
and the States are doing so, so this bill would deregulate from 
Federal Clean Air Act authority those activities. That has 
sweeping, sweeping implications that certainly aren't suggested 
by the farm dust title and don't even appear to be intended by 
some of the members from their statements here this morning.
    Mr. Rush. Thank you very much.
    Mr. Chairman, earlier there was a line of questioning that 
I thought was quite interesting, and it covered areas of legal 
fees and the amount of money recouped through legal 
representation, and in fairness and in full disclosure, I want 
to ask the same question of all the members of the panel. 
Please, if you will, provide the lawsuits brought against the 
EPA by the American Farm Bureau Federation, the National Stone, 
Sand and Gravel Association and the National Cattlemen's Beef 
Association, and the fees that were obtained as a result of 
those legal actions. And also, I understand that Mr. Blase is 
being paid by the Coarse Particulate Matter Coalition, and 
would you provide to the committee the full amount that you are 
being paid to represent them?
    Mr. Chairman, I think that that is for full disclosure, and 
would you please provide those amounts for the record?
    Mr. Olson. [Presiding] Without objection, so ordered.
    Mr. Foglesong. Sir, point of clarification. Do you want to 
know also what we spent?
    Mr. Rush. No, I want to know the fees that you were 
provided, and I think that would cover the same territory that 
was requested of Mr. Walke. We just want to make sure that 
there is full disclosure and there is fair disclosure in terms 
of fees that organizations are able to--or remunerations from 
the EPA and the matter of lawsuits.
    Mr. Burgess. Will the gentleman yield?
    Mr. Rush. I don't know if I have any time.
    Mr. Burgess. Well, I would be interested in what they 
spent. If we are going to compile that information, let us be 
complete.
    Mr. Rush. Well----
    Mr. Burgess. I would be interested in what you spent. I 
will add that to Mr. Rush's request.
    Mr. Rush. And so we will also add that to Mr. Walke's 
request, what is the amount that your organization spent, the 
amount that you spent in terms of court action.
    Mr. Walke. On the litigation?
    Mr. Rush. Yes, on the litigation.
    Mr. Olson. Everybody follow that? Without objection, so 
ordered.
    Mr. Rush. I yield back.
    Mr. Olson. The gentleman's time is expired, and the chair 
recognizes the gentleman from Illinois, Mr. Shimkus.
    Mr. Shimkus. Thank you. It is great to have the panel.
    Can anyone define for me what ``at this time'' means? Mr. 
Foglesong, do you know what ``at this time'' means?
    Mr. Foglesong. At this time.
    Mr. Shimkus. OK. I am making my point. The point is, when 
the Assistant Administrator was here, in her testimony she 
said--I read the letter and of course Administrator Jackson 
said ``I am prepared to propose a retention with no revision of 
the current PM<INF>10</INF> standard form when it is sent to 
OMB for interagency review,'' and her response was, we are 
going to abide by this at this time. ``At this time'' means 
today, right? And there could be tomorrow would not be at this 
time. Tomorrow would be tomorrow. Isn't that, for Mr. Foglesong 
and Mr. Rogers, Mr. Lien, isn't that part of the risk, the 
uncertainty that you are dealing with?
    Mr. Rogers. That is completely part of the risk, and as the 
monitoring network is developed across this country where there 
may not be that intense monitoring network today, as those 
monitors are enhanced, that is where ``at this time'' comes 
into play. There may be a speed limit across this country but 
if there is not an officer there to pull you over, he doesn't 
know if you went five over or not. It is a monitoring issue.
    Mr. Shimkus. And if you could pull up Mr. Blase's map on 
the proposal? Half of the country under a proposed--that is 
additional risk to agricultural America.
    Everybody knows in this country jobs are impacted, and one 
of the major impacts is risk, is uncertainty. That is why we 
are doing this today, to at least give the agriculture sector 
some certainty.
    Now, Mr. Lien, you are from the sand and gravel. Two weeks 
ago, I read, you know, the only sector in this country that 
created jobs over the last quarter? You should.
    Mr. Lien. I would say that----
    Mr. Shimkus. It was the mining industry.
    Mr. Lien. The mining industry.
    Mr. Shimkus. The mining industry was the only sector in 
this country that created jobs, and just yesterday, Caterpillar 
gave its quarterly report, and Caterpillar did well. You know 
what Caterpillar sells? Mining equipment. So there is a debate 
on rules and regs and the cost of doing business based upon 
uncertainty and job creation, and all this is about is 
providing certainty. I would agree with Mr. Hurt that we can-- 
we are legislators. We sure can legislate when it has harm to 
job creation in parts of the country. If she would pull up my 
harvester cutting beans? Those are coarse particulates. They 
are probably bigger than the PM<INF>10</INF>. Does anyone know 
how far those coarse particulates travel?
    Mr. Rogers. It depends on if there is wind activity or not, 
but those coarse particulates that you can see normally will 
settle back down within several hundred feet.
    Mr. Shimkus. And that is all part of the rural debate 
because there are not people around. In rural America, it is 
not like a city. It is not a metropolitan area. In my new 
Congressional district, parts of 33 counties, I think my 
biggest community is going to have 33,000 people in it. It is 
one-third of the State of Illinois. So if we are farming in my 
district, which we do, and we are cutting beans, those coarse 
particulates are going to fall to the ground way before they 
reach any exposure, especially with the air conditioned cabs 
these guys have now, so even the person on the harvester is not 
going to be affected.
    Let me go to Mr. Walke real quick. Administrator Jackson in 
essence said that the PM<INF>10</INF> standard really by this 
protects human health, the standard today. That is why she is 
not going to submit to OMB. Is that the NRDC's position?
    Mr. Walke. We are prepared to accept that when she proposes 
the rulemaking to not change the standard if----
    Mr. Shimkus. So your testimony is that you will not sue if 
this continues to be promulgated and the Administration keeps 
this as the standard?
    Mr. Walke. Mr. Shimkus, that is the first time that word 
has come out, and it was your mouth, not mine.
    Mr. Shimkus. At this time?
    Mr. Walke. At this time, today, now, I am not going to 
discuss litigation before I----
    Mr. Shimkus. So you might bring this.
    Mr. Walke. Mr. Shimkus, if you want--if this is going to be 
a----
    Mr. Shimkus. No, I am just asking----
    Mr. Walke. Let us talk about speculation----
    Mr. Shimkus. Reclaiming my time. Mr. Walke, you are very 
cavalier with the lives of rural America and agricultural 
America, saying in respect to the testimony received that the 
PM<INF>10</INF> standard affects their jobs and their economy 
so I am just addressing the point that the NRDC is not on 
record as saying whether they will or will not----
    Mr. Walke. If I may, Mr. Shimkus, this bill removes Federal 
Clean Air Act authority----
    Mr. Shimkus. And I yield back my time.
    Mr. Walke [continuing]. Over 80 percent of America. Eighty 
percent of America has Federal----
    Mr. Shimkus. Mr. Chairman, I yield back my time.
    Mr. Whitfield. The gentleman yields back his time.
    At this time I recognize the----
    Mr. Rush. Mr. Chairman, Mr. Chairman, Mr. Chairman.
    Mr. Whitfield. For what purpose does Mr. Rush----
    Mr. Rush. Regular order, Mr. Chairman.
    Mr. Whitfield. Regular order?
    Mr. Rush. Regular order. Mr. Shimkus asked the gentleman a 
question.
    Mr. Shimkus. I did not, Mr. Rush.
    Mr. Rush. Will the reporter please read the last question 
that Mr. Shimkus asked?
    Mr. Whitfield. Can we just stipulate that Mr. Shimkus did 
ask a question----
    Mr. Rush. But he----
    Mr. Whitfield [continuing]. His time expired and then he 
decided he didn't want to----
    Mr. Rush. No. He cut him off in the middle of----
    Mr. Shimkus. No, that is not true.
    Mr. Rush. He cut him off in the middle of the answer.
    Mr. Shimkus. That is not true.
    Mr. Rush. Will you please give the witness the courtesy of 
answering the question? We do that as a formality in this 
subcommittee.
    Mr. Burgess. Mr. Chairman, if you will yield to me, I will 
yield the witness 30 seconds to respond.
    Mr. Whitfield. Well, Dr. Burgess, I am going to recognize 
you for 5 minutes for questions and you can do what you want to 
do with it.
    Mr. Burgess. The committee has a long history of treating 
its witnesses well. I want to recognize the gentleman for 30 
seconds to respond.
    Mr. Walke. Dr. Burgess, thank you for your professional 
courtesy. I will only take 30 seconds of your 5 minutes.
    The point I wanted to make in responding to Mr. Shimkus was 
that in contrast to imaginary problems or imaginary lawsuits 
that no one has any intention of bringing, this bill, if 
adopted into law, would remove Federal Clean Air Act authority 
over 80 percent of America, which is defined as rural by any 
number of government metrics. That has nothing to do with farm 
dust but it does have to do with deregulating industrial 
pollution from power plants that causes premature deaths and 
heart attacks, and that is the only thing I was trying to say.
    Mr. Burgess. OK. Reclaiming my time.
    Can we go back to that map that had half the country in 
blue? Can we recall that slide? You know, I listened to the 
testimony of Dr. Wellenius, and in your written testimony, you 
talked about most existing epidemiologic studies in coarse 
particles have been conducted in urban settings. Most of the 
urban settings actually, though are removed from that map that 
is covered by the footprint of the coloration. Is that correct?
    Mr. Wellenius. So we do the studies where we have monitor 
data existing primarily and the EPA sites those monitors. From 
the research side, we don't have a say as to where those 
monitors are sited. So there are parts of the country that----
    Mr. Burgess. The real hot spots for cardiovascular disease, 
lung disease, interstitial lung disease, industrial 
pneumoconiosis, if you were to color those in on the maps, they 
likely would be for the most part outside the blue footprint. 
Is that not correct?
    Mr. Wellenius. So there are several areas that are in blue 
there that do have high air pollution. There are parts of 
Texas, parts of Arizona, parts of southern California that do 
have high air pollution.
    Mr. Burgess. Texas is a huge State. Houston has a problem. 
It is miniscule. It can be ignored most of the time as we in 
the Dallas-Fort Worth area know well.
    But I just would make the point, is there a cost-benefit 
analysis you have done? I mean, you want to implement something 
on vast swaths of relatively low density population. Have you 
done a cost-benefit analysis on how this would affect people's 
livelihoods and the status of people overall, the overall 
health of people, and how can we be sure sitting here on this 
committee that you are not double counting some of these people 
that are saved in your studies? How can we be sure you are not 
double counting those individuals?
    Mr. Wellenius. Right. So----
    Mr. Burgess. So there are people that might have been saved 
anyway by the effects of the Clean Air Act where this 
additional regulation would have only miniscule positive or 
negative effect.
    Mr. Wellenius. Yes. Thank you. You asked me first the 
question of have I done a cost-benefit analysis, and the 
response is, I have not. The scientific committee is large and 
there are those of us that deal with the health effects of air 
pollution, doing the health side, and there are people in the 
cost-benefit business that certainly take those effects that we 
estimate and also incorporate the costs of regulation and the 
costs of lives averted or the hospitalizations averted. I am 
not specifically in that area, so no, I have not conducted that 
cost-benefit analysis.
    Mr. Burgess. OK, so we don't know is the answer to that 
question.
    Now, Administrator McCarthy had a rather large compendium 
of documents next to her as she testified, and this is 
described as the Integrated Science Assessment for Particulate 
Matter. Are you familiar with this document?
    Mr. Wellenius. Yes, I am.
    Mr. Burgess. My read of at least a portion of this is that 
there is insufficient evidence to determine that coarse 
particulate matter causes health effects. That is written on 
page 219, third heading, maybe six lines from the end of the 
page: ``To date, a sufficient amount of evidence does not exist 
in order to draw conclusions regarding the health effects and 
outcomes associated with long-term exposure to 
PM<INF>10</INF>.'' Is that accurate?
    Mr. Wellenius. That is accurate. For long-term effects of 
coarse particles, there is next to no evidence in support of 
long-term health effects.
    Mr. Burgess. Well, and certainly we will stipulate your 
credentials and the credentials of everyone at the witness 
table today, but one of the tasks that we face is how do you 
approach regulation in a way that does not further cripple the 
economy, allows witnesses at the other end of the table to 
continue their livelihoods and to support their employees and 
their families. You know, forgive me, it looks like we are 
going on some pretty thin evidence here with some fairly 
sweeping regulations, and I guess that is overall what the 
concern here is of the committee today, and I think the reason 
that Representative Noem brought the legislation forward.
    I thank the gentleman for his indulgence and I will yield 
back the balance of my time.
    Mr. Whitfield. Thank you, Dr. Burgess.
    Mr. Wellenius. Mr. Chairman?
    Mr. Whitfield. Yes?
    Mr. Wellenius. Thank you. So I agree, you do have an 
enviable task and one that I am happy you are doing rather than 
me in terms of balancing the public health benefit versus how 
to impose those regulations in a sensible manner. You focused 
on the long-term effects of long-term exposure to coarse 
particulate matter. There is evidence on the short-term 
exposure that that is associated with increased 
hospitalizations, increased premature death. We need more 
research for sure but the current evidence as the Integrated 
Science Assessment concludes is suggestive of causal 
association. Thank you.
    Mr. Whitfield. Mr. Olson, you are recognized for 5 minutes.
    Mr. Olson. I thank the chair. More importantly, I thank the 
witnesses for your time and expertise today. And I am from 
southeast Texas, Sugar Land, Texas. There is no equal. As you 
guys know, Texas, all of Texas has suffered an historic 
drought, excessive heat, over 100 degrees for almost the entire 
month of August in Houston, which is unprecedented, and 
wildfires all across our State, and ranchers and farmers have 
been disproportionately hit by these disasters. And the theme 
of this series of hearings that this subcommittee and the full 
committee has had is about the uncertainty created by the 
administration's regulatory agenda. I want to talk a little bit 
about that.
    I mean, there has been some testimony in the prior panel 
and even on this panel about uncertainty and the fact that, you 
know, EPA's promise not to revise the standards for 5 years 
provides more certainly than a law, H.R. 1633, would provide, 
and I am curious if some of the panelists honestly believe that 
the Executive Branch agency action provides more certainty than 
a law passed under our Constitution by Congress. I am just 
asking for a simple yes or no answer. Mr. Foglesong?
    Mr. Foglesong. I don't believe that is exactly how I would 
put that out. We look to you all because we vote you into 
Congress and we expect you to look out for us.
    Mr. Olson. It sounds like Congress over the Executive 
Branch agency.
    Mr. Foglesong. Absolutely.
    Mr. Olson. Yes, sir.
    Mr. Rogers. I would agree.
    Mr. Olson. Yes, sir. Mr. Lien?
    Mr. Lien. I would agree.
    Mr. Olson. Thank you, sir.
    Mr. Blase. I would agree.
    Mr. von Wachter. Sir, if your question is whether 
regulation reduces uncertainty, that is true. Whether 
uncertainty has an impact on economic activity, that is from a 
scientific point of view an open question.
    Mr. Olson. My question is, what provides more uncertainty, 
Executive Branch agency regulations or regulations by laws 
passed by Congress? I mean, which one provides more certainty? 
What is the more difficult process, going through the 
Constitution or going through the Executive Branch? I think the 
answer is the Constitution. Wouldn't you agree? Yes or no.
    Mr. von Wachter. I think you are better qualified than me 
to answer that question.
    Mr. Olson. You are an American. You have an opinion.
    Mr. Walke?
    Mr. Walke. You know, as a matter of law, they are equally 
lawful. If the legislative period of relief is short like this 
one and the administrative period is longer, than it is the 
longer period.
    Mr. Olson. OK. And Dr. Wellenius?
    Mr. Wellenius. I have no comment.
    Mr. Olson. No comment whatsoever? OK.
    My final round of questions is for Mr. Blase. Mr. Blase, 
can you give a brief history of the last round of the PM 
revision and this one, and specifically, is it possible for us 
to be in the exact same position in 5 years with farmers, 
ranchers and other rural businesses if the EPA chooses to lower 
the standard on dust?
    Mr. Blase. Oh, yes, absolutely. That is what happened the 
last time. It is kind of a complicated thing and I won't go 
into all the details, but there has been a debate over--you 
know, the current standard for PM<INF>10</INF> includes PM2.5. 
It includes fine and coarse. So there has been a debate over 
whether the fine should just be kicked out and the coarse PM 
standard should only be the top 2.5 to 10. I think my personal 
view is, that is probably what is going to happen in the next 
review. But in the last review, what happened was, EPA took a 
stab at doing just that and regulating true coarse PM. The 
problem with that was the concentration limit was way lower 
than most of us thought we could meet. Therefore, there was an 
exemption proposed for agriculture and mining activities. In 
the end, EPA threw up its hands and said we don't know what the 
numbers should be, we don't know what the exemptions should be 
so we are going to retain the current standard. But yes, the 
proposal--if the point is the final rule can look quite 
different from the proposal, the last reviews proves that.
    Mr. Olson. One final question about the rulemaking. I have 
introduced a bill, H.R. 1341, which is called the Establishing 
Public Accountability Act. It is very simple. It just requires 
the EPA to do some study of the impact of jobs on regulations 
and rulemaking, the proposed changes, and it requires them to 
do this before the public comment period so the public will 
have the opportunity to review what EPA is proposing. And so I 
just want to ask all six of you again, seven actually, just yes 
or no, do you think that bill will be something you support? 
Mr. Foglesong?
    Mr. Foglesong. Sure.
    Mr. Rogers. Yes.
    Mr. Lien. Yes.
    Mr. Blase. Yes.
    Mr. von Wachter. That was a bit quick for me, but it seems 
that if EPA is supposed to look at both the costs and benefits 
of their regulation, that that seems a good idea.
    Mr. Olson. I will put you down as yes.
    Mr. Walke?
    Mr. Walke. Is that the Regulatory Accountability Act, 
Congressman?
    Mr. Olson. Establishing Public Accountability, H.R. 1341. I 
can get you a copy of it. But it is very simple, just the 
public has the right to know, you know, whether or not this 
regulation, this new rulemaking, what the impact is going to be 
on American jobs. Either is going to create jobs or kill jobs, 
and that is what we need to address here. I think that is the 
biggest challenge our country is facing is the lack of jobs in 
this recession.
    Mr. Walke. Well, I would love to read the bill before 
answering that question, if I might.
    Mr. Olson. We will hook you up.
    And finally, Dr. Wellenius.
    Mr. Wellenius. Again, I am here to comment on the science 
and the health effects, not on the policy.
    Mr. Olson. Thank you, sir.
    And that is. I yield back my time.
    Mr. Whitfield. Thank you, Mr. Olson.
    Mr. Pompeo, you are recognized for 5 minutes.
    Mr. Pompeo. Thank you, Mr. Chairman.
    Mr. Blase, Mr. Walke said that no one had contradicted sort 
of the legal statements that Ms. McCarthy set out, and you are 
counsel, so I thought maybe you could help me. He also made the 
statement that 80 percent of Federal regulatory would be 
stripped away by this bill. Would you care to comment on what 
you think this legislation would do with respect to the scope 
of the EPA's ability to regulate?
    Mr. Blase. Yes, I think it is a carve-out for crustal 
coarse particulate matter and nothing else is involved. I mean, 
power plants, tailpipe emissions, it is all fine PM. I don't 
believe these changes are necessary. People think changes are 
necessity to this legislation to exclude fine PM. My group 
would probably support that. But as I read it right now, I 
think it is confined to coarse crustal emissions, which is what 
is supported by the science and as it should be.
    Mr. Pompeo. So your legal analysis is very different from 
Mr. Markey's comments, Ms. McCarthy's statements and Mr. 
Walke's testimony.
    Mr. Blase. Very different, yes, sir.
    Mr. Pompeo. So I have power plants not excluded, school bus 
tailpipes, no impacts. This notion of because they are 
windblown they will all get caught up in this and we won't be 
able to regulate them so they will become law. Nonsense.
    Mr. Blase. No, I don't believe it covers those at all.
    Mr. Pompeo. OK. Great. I yield back the balance of my time.
    Mr. Whitfield. Thank you, Mr. Pompeo.
    Mr. Griffith, you are recognized for 5 minutes.
    Mr. Griffith. Dr. von Wachter, your testimony mentioned 
that those who lose their job can experience health problems 
that can lead to significant reductions in life expectancy. I 
have been concerned about a number of EPA regulations related 
to similar things like what happens when you raise the cost of 
electricity and the people my district can't afford to heat 
their homes. So I would just ask you in regard to the job loss 
and then significant reductions in life expectancy, can you 
explain that and tell me what you mean by that, and can it 
actually shorten a worker's life?
    Mr. von Wachter. Absolutely. I would be happy to clarify. 
So what we have done, we have looked at workers displaced in 
large downsizing Pennsylvania in the early 1980s, and these 
were workers at, you know, relatively large, stable firms and 
stable jobs and they had very long-lasting earnings losses, and 
over the next 20 years they also had increases in mortality 
rates, and those who had the larger earnings losses had the 
higher increases in mortality rates, and if you add those 20 
years up and assumes that the mortality effect lasts until the 
end of our lives, which seems to be a fine assumption because 
the effects are very stable, then you get to 1.5-year losses in 
life expectancy. So this one-time shock, what seems to be a 
shock to earnings but also lifestyle, can have these long-term 
effects. Now, Pennsylvania in the early 1980s is a very hard-
hit State with the reduction in steel and mining at that time, 
so I would characterize that as worst-case scenario.
    Mr. Griffith. So what you are saying is, if we are going to 
study the health impacts of regulations, we ought to also look 
at the unintended consequences if it does have a downturn in 
jobs that that could actually negative impact the health of 
workers and of a particular community.
    Mr. von Wachter. Oh, absolutely. So regulations affecting 
certain businesses certainly could lead to job displacement 
that has been shown to lead to job displacement and this 
displacement takes place in a very depressed economic 
environment, that they could have large costs with the affected 
workers in terms of earnings but also other outcomes.
    Mr. Whitfield. Mr. Blase, did you want to respond?
    Mr. Blase. Yes, I have a brief response to that. Our 
coalition has spent some time looking at what is a great 
developing body of scientific literature that suggests that 
unemployment itself causes adverse health effects, which I 
don't think takes an epidemiology study to show for most of us. 
However, we have pressed that point with the agency but have 
been told repeatedly that they have no legal authority to 
consider that aspect. So we will be making the point in our 
comments on the upcoming proposal and in other forums, but as 
of now, EPA is telling us, you know, the health effects of 
unemployment cannot be considered in this equation.
    Mr. Griffith. And I know you don't have any study on it but 
I think that plays into my fear that when we raise the cost of 
goods and services, particularly goods--again, I get back to 
heating but also we are talking about these things that could 
raise the cost of food products. That makes it particularly 
hard on the working poor or the unemployed, and that too would 
by common sense seem to have a health impact. Wouldn't you 
agree?
    Mr. Blase. Yes, I would.
    Mr. Griffith. I thank you very much for being here and all 
your testimony, and I appreciate, Mr. Walke, there may be a way 
to fix that concern of us although based on the definitions, I 
recognize that it may not need fixing. That being said, Mr. 
Chairman, I yield back my time.
    Mr. Whitfield. The gentleman yields back.
    Mr. Rush, do you seek recognition?
    Mr. Rush. Mr. von Wachter and Mr. Blase kind of touched on 
something I am interested in. You said unemployment has health 
consequences for the unemployed. Is that correct?
    Mr. von Wachter. So what we can establish is that the job 
loss has an effect on health.
    Mr. Rush. On health.
    Mr. von Wachter. Establishing that unemployment has an 
effect is very difficult, because once you lose your job being 
unemployed is partly a choice of the worker, so it is not clear 
what is cause and effect at that point, but job losses have 
been shown to have an effect on health in the short and long 
run. It is possible----
    Mr. Rush. Did your study include the chronically unemployed 
and the underemployed?
    Mr. von Wachter. As I said, it is difficult to establish 
those effects for those who are chronically unemployed or 
currently underemployed just from a statistical point of view. 
We don't know what the right comparison group is. Now, 
presumably, from what we know, these people are unlikely to do 
better but one has to be very careful because unemployment is 
itself an outcome. For example, a sick worker might become 
unemployed and you don't want to conclude that unemployment 
makes you sick, but if you are displaced from a large 
downsizing, presumably you were a good worker and that being 
displaced from the downsizing doesn't make you sick, so that is 
a statement about causality that is easier to back up.
    Mr. Rush. I yield back, Mr. Chairman.
    Mr. Whitfield. Thank you, Mr. Rush, and thank all of you 
for your time and giving us your entire testimony as well as 
your oral testimony. We look forward to working with all of you 
as we move forward, and thank you very much for attending, and 
with that, the hearing is concluded and the record will remain 
open for 10 days for any additional materials. Thank you.
    [Whereupon, at 1:35 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T6176.281
    
    [GRAPHIC] [TIFF OMITTED] T6176.282
    
    [GRAPHIC] [TIFF OMITTED] T6176.283
    
    [GRAPHIC] [TIFF OMITTED] T6176.284
    
    [GRAPHIC] [TIFF OMITTED] T6176.285
    
    [GRAPHIC] [TIFF OMITTED] T6176.286
    
    [GRAPHIC] [TIFF OMITTED] T6176.287
    
    [GRAPHIC] [TIFF OMITTED] T6176.288
    
    [GRAPHIC] [TIFF OMITTED] T6176.289
    
    [GRAPHIC] [TIFF OMITTED] T6176.290
    
    [GRAPHIC] [TIFF OMITTED] T6176.291
    
    [GRAPHIC] [TIFF OMITTED] T6176.292
    
    [GRAPHIC] [TIFF OMITTED] T6176.293
    
    [GRAPHIC] [TIFF OMITTED] T6176.294
    
    [GRAPHIC] [TIFF OMITTED] T6176.295
    
    [GRAPHIC] [TIFF OMITTED] T6176.296
    
    [GRAPHIC] [TIFF OMITTED] T6176.297
    
    [GRAPHIC] [TIFF OMITTED] T6176.298
    
    [GRAPHIC] [TIFF OMITTED] T6176.299
    
    [GRAPHIC] [TIFF OMITTED] T6176.300
    
    [GRAPHIC] [TIFF OMITTED] T6176.301
    

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
